<html>
<title> - EXAMINING INNOVATIVE PRACTICES TO IMPROVE CHILD NUTRITION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



       EXAMINING INNOVATIVE PRACTICES TO IMPROVE CHILD NUTRITION

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 8, 2009

                               __________

                           Serial No. 111-35

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
52-577 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                Barrett Karr, Republican Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
Judy Chu, California                 Glenn Thompson, Pennsylvania















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 8, 2009..................................     1

Statement of Members:
    Clarke, Hon. Yvette D., a Representative in Congress from the 
      State of New York, prepared statement of Lorna Donatone....    48
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     3
        Additional submissions:
            The Nutrition Consortium of New York State...........    42
            Carter, Dr. Gene R., executive director/CEO, ASCD....    45
    Platts, Hon. Todd Russell, Ranking Minority Member, 
      Subcommittee on Healthy Families and Communities...........     4
        Prepared statement of....................................     5
    Shea-Porter, Hon. Carol, a Representative in Congress from 
      the State of New Hampshire, prepared statement of..........    44

Statement of Witnesses:
    De Burgh, Richard, president, DJ Co-Ops......................    17
        Prepared statement of....................................    19
    Geraci, Anthony, director of food and nutrition services, 
      Baltimore City Public Schools..............................    25
        Prepared statement of....................................    27
    Lagnado, Mary A., assistant superintendent for Westbury UFSD, 
      New York...................................................    13
        Prepared statement of....................................    15
    Sharp, Matthew, California Food Policy Advocates.............     9
        Prepared statement of....................................    11
    Sheehan, Alice, 8th grade student, Baltimore City Public 
      Schools....................................................    29
        Prepared statement of....................................    31
    Yargar-Reed, Deborah, physical education teacher, Biglerville 
      Elementary School..........................................    20
        Prepared statement of....................................    23

 
                     EXAMINING INNOVATIVE PRACTICES
                       TO IMPROVE CHILD NUTRITION

                              ----------                              


                       Thursday, October 8, 2009

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Shea-Porter, Tonko, 
Polis, Chu, Platts, Roe, and Thompson.
    Also present: Representative Woolsey.
    Staff present: Tylease Alli, Hearing Clerk; Denise Forte, 
Director of Education Policy; Broderick Johnson, Staff 
Assistant; Jessica Kahanek, Press Assistant; Alex Nock, Deputy 
Staff Director; Joe Novotny, Chief Clerk; Alexandria Ruiz, 
Staff Assistant; Melissa Salmanowitz, Press Secretary; 
Gabrielle Serra, Detailee, Child Nutrition; Dray Thorne, Senior 
Systems Administrator; Margaret Young, Junior Legislative 
Associate, Education; Kim Zarish-Becknell, Policy Advisor, 
Subcommittee on Healthy Families and Communities; Stephanie 
Arras, Minority Legislative Assistant; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Kirk 
Boyle, Minority General Counsel; Kirsten Duncan, Minority 
Professional Staff Member; Alexa Marrero, Minority 
Communications Director; Susan Ross, Minority Director of 
Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairwoman McCarthy [presiding]. Good morning, everyone. A 
quorum is present. The hearing in the House Committee on 
Education and Labor, Subcommittee on Healthy Families and 
Communities on Examining Innovative Practices in Child 
Nutrition will come to order.
    Before we begin I would like to remind everyone to turn off 
their cell phones and put their BlackBerries on silent so we 
don't have beeps and different tones coming through. I now will 
recognize myself, followed by Ranking Member Todd Platts, from 
Pennsylvania, for an opening statement.
    Number one, I would like to welcome everybody. Today we 
will examine innovative practices which will help increase 
access to child nutrition programs and to more healthy food for 
our children in our schools.
    Increased access for our schoolchildren is a critical issue 
as we move forward in work on the child nutrition 
reauthorization. Given the current harsh financial realities 
for many families in my district and throughout the nation, 
schools have an increasingly important role to play in 
providing children with nutritious food during their days. As a 
nurse for over 30 years, I have seen firsthand the risks and 
illnesses that can result from poor eating habits.
    There is also a surplus of data that indicates that well-
nourished students perform better throughout the day and are 
less likely to become obese. We have all heard our parents say, 
``Breakfast is the most important meal of the day.'' Studies 
have proven that parents do know best.
    Research has shown that children who regularly eat 
breakfast had better standardized test scores, better behavior, 
and were less hyperactive than children that skipped breakfast. 
Eating breakfast gives you energy, increasing your physical 
activity during the day. Eating breakfast reduces hunger, which 
makes it easier to avoid overeating and can help reduce obesity 
in our students.
    Unfortunately, less than half the students eligible for 
school breakfast participate in this important program. When 
you skip breakfast, you are more likely to skip fruits and 
vegetables the rest of the day also. We need to change all of 
that.
    We know our schoolchildren are not eating enough fruits and 
vegetables. Just last week the U.S. Center of Disease Control 
and Prevention released a report that found that less than 10 
percent of U.S. high school students are eating the combined 
recommended daily amounts of fruits and vegetables.
    We all know of the importance of eating healthy foods, 
including our fruits and vegetables, to the overall health of 
our children in the fight against obesity. The child nutrition 
meal programs can make a great impact because that may provide 
more than 50 percent of the student's food and nutrition taken 
on a regular school day.
    We know that change for adults is hard, but if we start to 
educate our children early enough we can establish lifelong 
habits and the values of healthy living and wellness for the 
future. By providing access to nutritious food like fruits and 
vegetables we have a wonderful opportunity to establish these 
positive lifelong habits.
    And of course, we cannot reach eligible schoolchildren 
without adequate access to the programs themselves. To reduce 
administration wastes and improve the accuracy of the school 
meal eligibility determination progress the school meals 
programs use the process known as direct certification.
    Under direct certification children are automatically 
enrolled for school meals based on data gathered by other 
means-tested programs. The 2004 reauthorization required all 
school districts, by the year 2008-2009 school year, to 
directly certify for free school meals children in households 
receiving Supplemental Nutrition Assistance Program, known as 
SNAP, benefits. This means that instead of a parent having to 
fill out a form each year for a free or a reduced-price meal, 
they are automatically enrolled in the meal programs if they 
are already enrolled in SNAP.
    Districts may also directly certify children in households 
receiving cash assistance through the Temporary Assistance for 
Needy Families, TANF, block grant or benefits under the Food 
Distribution Program on Indian Reservations. Nearly all states 
are complying with the requirement that they conduct direct 
certification, but not all of them are capturing all the 
students that they could.
    If we are to ensure all eligible kids have access to these 
important meal programs, we need to improve our direct 
certification capabilities. The decisions we make during 
reauthorization are very important to a great number of 
children, and that was why we have assembled such a 
knowledgeable panel.
    And I again thank you for being here.
    We will hear testimony today about some terrific innovation 
practices which increase access to the programs and better 
food, but by taking a comprehensive approach to nutrition our 
children, families, and communities will all be healthier. I 
want to thank you for all being here, and I look forward to 
your testimony.
    I now recognize the distinguished gentleman from 
Pennsylvania, Ranking Member Platts, for his opening statement.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I'd like to welcome our witnesses to this hearing.
    Today we will examine innovative practices which can help increase 
access to child nutrition programs and to more healthy food for our 
children in schools.
    Increased access for our schoolchildren is a critical issue as we 
move forward in our work on the child nutrition reauthorization.
    Given the current harsh financial realities for many families in my 
district and throughout the nation, schools have an increasingly 
important role to play in providing children with nutritious food 
during their days.
    As a nurse for over 30 years, I have seen firsthand the risks and 
illnesses that can result from poor eating habits.
    There is also a surplus of data that indicates that well nourished 
students perform better throughout the day and are less likely to 
become obese.
    We have all heard our parents say ``breakfast is the most important 
meal of the day.''
    Studies have proven that parents know best.
    Research has shown that children who regularly ate breakfast had 
better standardized test scores, better behavior, and were less 
hyperactive than children who skipped breakfast.
    Eating breakfast gives you energy, increasing your physical 
activity during the day.
    Eating breakfast reduces hunger which avoids making it easier to 
avoid overeating and can help reduce obesity in students.
    Unfortunately, less than half of students eligible for school 
breakfast participate in this important program.
    When you skip breakfast, you're more likely to skip fruits and 
vegetables the rest of the day too.
    We need to change that.
    We know our school children are not eating enough of fruits and 
vegetables.
    Just last week, the U.S. Centers for Disease Control and Prevention 
released a report that found that less than 10 percent of U.S. high 
school students are eating the combined recommended daily amount of 
fruits and vegetables.
    We all also know the importance of eating healthy food, including 
fruits and vegetables to the overall health of our children and in the 
fight against obesity.
    The child nutrition meal programs can make a great impact because 
they may provide more than 50 percent of a student's food and nutrient 
intake on school days.
    We know that change for adults is hard, but if we start to educate 
our kids early enough, we can establish lifelong habits and the values 
of healthy living and wellness for the future.
    By providing access to nutritious food like fruits and vegetables, 
we have a wonderful opportunity to establish these positive lifelong 
habits.
    And of course we cannot reach eligible schoolchildren at all 
without adequate access to the programs themselves.
    To reduce administrative waste and improve the accuracy of the 
school meal eligibility determination process, the school meals 
programs use a process known as ``direct certification.''
    Under direct certification, children are automatically enrolled for 
free school meals based on data gathered by other means-tested 
programs.
    The 2004 reauthorization required all school districts, by the 
2008-2009 school year, to directly certify for free school meals 
children in households receiving Supplemental Nutrition Assistance 
Program, known as ``SNAP'' (CMC--``SNAP'' was formerly food stamp) 
benefits.
    This means that instead of a parents having to fill out a form each 
year for free or reduced price meals, they are automatically enrolled 
in the meal programs if they are already enrolled in SNAP.
    Districts may also directly certify children in households 
receiving cash assistance through the Temporary Assistance for Needy 
Families (TANF) block grant or benefits under the Food Distribution 
Program on Indian Reservations (FDPIR).
    Nearly all states are complying with the requirement that they 
conduct direct certification, but not all of them are capturing all the 
students that they could.
    If we are to ensure all eligible kids have access to these 
important meal programs, we need to improve our direct certification 
capabilities.
    The decisions we make during reauthorization are very important to 
a great number of children, and that is why we have assembled such a 
knowledgeable panel.
    We will hear testimony today about some terrific innovative 
practices which increase access to programs and better food.
    We have our work cut out for us.
    But by taking a comprehensive approach to nutrition, our children, 
families and communities will all be healthier.
    Thank you all for being here and I look forward to your testimony.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair.
    Good morning to everyone.
    I want to first thank you, Madam Chair, for holding this 
important hearing where we will explore innovative practices 
aimed at improving childhood nutrition.
    Access to nutritional foods and a healthful diet is an 
important component in ensuring children receive the 
nutritional needs necessary to be successful and school and 
start the journey towards a more health adulthood. The Centers 
for Disease Control and Prevention state that 17 percent of 
children ages two to 19 are considered overweight. These 
overweight children are more likely to become overweight adults 
and have a much greater risk of developing cardiovascular 
diseases, diabetes, and certain cancers.
    Several initiatives at both the local and federal level 
have taken significant steps in advancing the health of 
schoolchildren. Improvements made to both the National School 
Lunch and School Breakfast Programs for the last several years 
have sought to improve the nutritional wellbeing of our 
nation's students.
    While the School Lunch Program must meet applicable 
recommendations of the 1995 dietary guidelines, many schools 
are choosing to go beyond these recommendations. According to 
the CDC, the percentage of schools that offer a la carte items 
such as vegetables and salads to students has increased 20 
percent since 2000, with over 72 percent of schools offering 
these items; over 66 percent of schools have chosen to trim fat 
from meat or use lean meat, up from 56 percent in 2000.
    As a parent of a fifth-grader and seventh-grader--and I 
regularly go in and have lunch at both of my children's 
schools--I see the improvements and the effort being made in my 
home school district, York Suburban. And actually it is kind of 
interesting to be sitting in the lunchroom of the middle school 
with my seventh-grader of what was the junior high when I went 
there, and I always comment that it seemed much larger when I 
was there, when I go back as an adult today. But I have seen 
great effort in the--both lunchrooms, of the elementary school 
and middle school, and that effort to really provide 
nutritional meals for our community's children.
    The Child Nutrition and Women, Infants, and Children 
Reauthorization Act of 2004 required schools participating in 
school lunch programs to develop comprehensive wellness 
policies. Local efforts have also improved, with over 65 
percent of school districts providing funding for staff 
development on nutrition and dietary behavior, an increase of 
over 20 percent since 2000.
    Today one of our witnesses is from my district, Ms. Deborah 
Yargar-Reed, a physical education teacher at Biglerville 
Elementary School in Adams County. Ms. Yargar-Reed will share 
with us experiences in her school where she worked 
collaboratively with her colleagues, administrators, and the 
local community to increase nutrition awareness and physical 
activity.
    I certainly look forward to hearing her testimony along 
with the testimony of all the witnesses as we address this very 
important issue as we look out for the best interests of our 
nation's students and, in doing so, look out for the future of 
our nation as they become our nation's leaders.
    So I thank each of you for being here today, for your 
testimony, and again look forward to hearing your thoughts.
    Thank you, Madam Chair. I yield back.
    [The statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Ranking Minority 
        Member, Subcommittee on Healthy Families and Communities

    Good morning. Welcome to our hearing. Today we will explore 
innovative practices aimed at improving childhood nutrition.
    Access to nutritional foods and a healthful diet is an important 
component in ensuring children receive the nutritional needs necessary 
to be successful at school and start the journey towards a more healthy 
adulthood. The Centers for Disease Control and Prevention states that 
seventeen percent of children ages 2-19 are considered overweight. 
These overweight children are more likely to become overweight adults 
and have a greater risk of developing cardiovascular diseases, 
diabetes, and certain cancers.
    Several initiatives at both the local and federal level have taken 
significant steps in advancing the health of school children. 
Improvements made to both the National School Lunch and School 
Breakfast Programs over the last several years have aimed at improving 
the nutritional well-being of students. While the School Lunch Program 
must meet applicable recommendations of the 1995 Dietary Guidelines, 
many schools are choosing to go beyond these recommendations. According 
to the Centers for Disease Control and Prevention, the percentage of 
schools that offered a la carte items like vegetables and bean salads 
to students has increased twenty percent since 2000, with over seventy-
two percent of schools offering these items. Over sixty-six percent of 
schools have chosen to trim fat from meat or use lean meat, up from 56 
percent in 2000.
    Additionally, the Child Nutrition and Women, Infants, and Children 
Reauthorization Act of 2004 required those schools participating in 
school lunch programs to develop comprehensive wellness policies. Local 
efforts have also improved, with over sixty-five percent of school 
districts providing funding for staff development on nutrition and 
dietary behavior, an increase of over twenty percent since 2000.
    Today, we will hear from Ms. Deborah Yargar-Reed, a Physical 
Education teacher at Biglerville Elementary School, in my Congressional 
District. Ms. Yargar-Reed will share with us experiences in her school, 
where she worked collaboratively with her colleagues, administrators, 
and local community members to increase nutrition and physical 
activity.
    I look forward to hearing the testimony from our distinguished 
panel today. As we move toward the reauthorization of federal child 
nutrition programs, it is critically important that we continue to 
improve the nutrition and wellness of our children, while remaining 
vigilant of the impacts of new mandates on our local school districts. 
Thank you, Chairwoman McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. And I thank you.
    Without objection, all members will have 14 days to submit 
additional materials or questions of the hearing record.
    I would like to briefly introduce our very distinguished 
panel of witnesses here with us this morning. The complete bios 
of the witnesses will be inserted into the record.
    Today we will hear from six witnesses, each of whom will 
focus on increasing access to the programs in healthy food and 
nutrition education. Again, I want to thank you for all being 
here.
    I ask unanimous consent for a member of the full committee, 
Representative Woolsey, to sit on the dais and ask questions. 
Representative Woolsey has been a leader in child nutrition 
issues, and I welcome her when she comes in. And there she is. 
Okay.
    In the interest of time, given the large number of 
witnesses today, I will keep my formal instructions short. I 
will now yield to Representative Chu to introduce our first 
witnesses, Matthew Sharp.
    And welcome. This is your first hearing with us. We 
appreciate it.
    Ms. Chu. And it is a pleasure to be on this committee. 
Thank you so very much.
    Thank you, Chairwoman. I would like to take this 
opportunity to introduce Matthew Sharp, a tireless advocate for 
nutrition and wellness in L.A. County. I had the pleasure of 
working with him when I was in the California legislature, and 
I sponsored a bill to increase food stamp eligibility by 
eliminating the fingerprinting requirement.
    It is wonderful to see you in D.C. Welcome.
    Matt works in the California Food Policy Advocates, Los 
Angeles office. He works to improve the health and wellbeing of 
low-income Californians by increasing their access to 
nutritious and affordable food.
    He travels throughout L.A. County to help increase access 
to school and community meal programs and shape policy and 
regulations by educating elected officials in Sacramento and 
Washington, D.C. on low-income Angelino's nutritional needs. 
They have been doing this work for over 10 years.
    I know I speak for the subcommittee when I say we look 
forward to your testimony.
    Chairwoman McCarthy. I thank you for that.
    Next I would like to introduce someone from my district, 
Mary Lagnado, assistant superintendent for Business and 
Management Systems of the Westbury Union Free School District 
in Westbury, New York. Mary is a school business official whose 
interest in the broad picture of the educational arena 
distinguishes her. As a senior administrative executive, Mary 
has a broad responsibility for the financial and administrative 
operation of the district's budget of $10 million.
    I was lucky enough to visit one of the Westbury schools, 
called Powell Lane Elementary, this past Monday and observe the 
wonderful school breakfast program that they have. I have to 
say, on Monday when I went I got there a little bit early just 
so I could have a chance to talk to the principal and Mary, and 
as the school buses came in the kids formed a line and they 
headed straight to the cafeteria. And one thing, as a nurse, I 
have to say, each child was given like a Purell to wash their 
hands before they ate.
    Remember, the flu season is here. Wash your hands. It is 
important.
    But I have to tell you how impressed I was. You know, I 
stayed on the line and I talked to the kids. I wanted to know 
how they liked the food, because that is the important thing. 
If the food is not tasteful the kids are not going to eat it.
    And as I watched them go down the line and pick out their 
fruits, the choice between scrambled eggs and French toast, and 
then I followed them into the cafeteria, and I have to tell 
you, as I talked to the kids, you know, I asked them about the 
food program, they loved it. And I know Mary will probably have 
other stories, especially for these kids that unfortunately 
sometimes, I am sure, it is probably one of the best meals they 
get for the day.
    But it was amazing to watch--and, you know, grade school. 
You know, even when I went to grade school we weren't exactly 
orderly. Well, these kids ate and then went down and sat down 
on the gym floor, waited to go to the classroom. The older 
students went, ate, and then stood in front of their classrooms 
in a line to go in.
    And I think it shows that having a good breakfast and 
seeing the orderly behavior that goes along, it takes that bite 
off hunger. And I am sure that they are all doing much better 
in school today than they were a few years ago.
    I welcome and I look forward to your testimony.
    I want to yield, again, to the ranking member, Mr. Platts, 
so that he can introduce the next witness.
    Mr. Platts. Thank you, Madam Chair.
    I bring apology. Buck McKeon, who was the former chairman 
and ranking member of this full Committee on Education and 
Labor and now the ranking member for Armed Services had planned 
to be here to introduce our next witness. Buck is tied up in an 
Armed Services Committee hearing and will hopefully join us 
shortly, but asked me, in the meantime, to introduce one of his 
constituents, Richard De Burgh.
    Richard has served our nation in uniform as an Army 
captain, including service in Vietnam as a forward observer, 
and after returning home and leaving military service has been 
engaged in and worked in the food service for several decades 
now, including more than 20 years in food service
    His school food service experience has included opening and 
managing the largest school district production facility in the 
nation, serving as president of the Southern California School 
Food Service Association, and serving as a field supervisor and 
director of food services for both the Glendale and Los 
Angeles, California Unified School Districts. In 2005 he was 
awarded the Friend of Child Nutrition Award by the School Food 
Service Association. Mr. De Burgh is currently an adjunct 
professor at the University of Southern California for the 
certificate program for chief business officials, teaching both 
food services and purchasing.
    Mr. De Burgh is here today to speak to us as the president 
of DJ Co-Ops, Incorporated. DJ Co-Ops is located in Valencia, 
California, and has been in business since 1989. DJ Co-Ops 
coordinates the purchasing for over 1,800,000--I think that is 
correct, right--1,800,000,,,
    Mr. De Burgh. Two million, now.
    Mr. Platts. Oh. Two million school lunches each day in over 
1,000 school districts throughout the nation, so we certainly 
one, appreciate your service to our nation in uniform, and 
welcome the expertise that you bring to this hearing today. So 
thank you, Mr. De Burgh.
    Chairwoman McCarthy. I want to say something at this point, 
what Mr. Platts had brought up. There are many members on this 
subcommittee. Unfortunately, a lot of us are on two or three 
committees, so by not seeing a full dais, please don't feel 
that this is not an important subject. Everyone on this 
committee knows this is an important subject, but we all have 
to say, ``Okay, where am I going today?'' And that is the way 
things work around here.
    Again, I would like to yield to Ranking Member Platts to 
introduce our next witness, Ms. Deborah Yargar-Reed.
    Mr. Platts. Thank you, Madam Chair, and I would echo your 
sentiments. And it is also one of the benefits of your written 
testimonies, that our colleagues who can't be here and our 
staff of all of us have that opportunity to have your knowledge 
shared with us. And it is a challenge--I am on three full 
committees and seven standing committees currently, or 
subcommittees. So I am supposed to be in the meeting that Buck 
is in, so he is there and I am here.
    But it is a great pleasure to have one of my constituents 
with us here today. Deborah Yargar-Reed has been a physical 
education teacher at Biglerville Elementary School in Adams 
County, Pennsylvania, since the 2006-2007 school year and has 
taught in the Upper Adams School District since 1988.
    Ms. Yargar-Reed received her Bachelor of Science degree 
from Slippery Rock University in health and physical education 
with an emphasis in lifetime fitness. She earned her Master's 
degree in health education from Penn State University.
    Ms. Yargar-Reed was named the Volunteer of the Year from 
the American Heart Association for her work with and 
participation in the Jump Rope for Heart event and received the 
Gwen E. Unger Outstanding Teacher of the Year Award. She was 
also featured in the October 2008 issue of Good Housekeeping 
for her work and the work of Upper Adams School District on 
initiatives for healthy changes in the foods offered to 
students.
    Finally, Ms. Yargar-Reed attended the Wellness Institute at 
Dixon University. It was through this graduate class that she 
began her work on the School Health Council within the Upper 
Adams School District.
    So again, Deborah, we are delighted to have you here and 
appreciate your service in the community in Adams County as 
well as your testimony.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you.
    Our next witness is Anthony Geraci, the director of Food 
and Nutrition for Baltimore City Public Schools.
    Welcome. Did I pronounce your name right?
    Mr. Geraci. No. Actually it is----
    Chairwoman McCarthy. We are going to call you Tony. 
[Laughter.]
    Mr. Geraci. Please call me----
    Chairwoman McCarthy. Since his arrival in Baltimore last 
year, Tony's department has taken over a city-owned but 
abandoned 33-acre farm which is now being used for vocational 
training in organic food production for Baltimore City schools. 
Tony's focus is on nutrition and vocation training in the 
hospitality industry for the kids of Baltimore.
    Finally, I would like to welcome Ms. Alice Sheehan. Alice 
is an eighth-grade student at City Neighbors Public Charter 
School student, Baltimore, Maryland. Alice has been working for 
the last few years on getting students access to more 
nutritious food in schools.
    Alice, I understand there are several of your fellow 
students here supporting you today. Is that right?
    Ms. Sheehan. Yes.
    Chairwoman McCarthy. Could they please stand up and be 
recognized?
    Thank you very much for being here. [Applause.]
    Again, I would like to say thank you for all of you taking 
the time out of all your busy lives to be here to give us the 
information that you have already gone through in living it and 
on experience.
    Before we start I want to explain the lighting system. In 
front of you you will see a little box there that is going to 
be--each one of you will get 5 minutes, so when you start 
speaking you will be on green. When it goes on yellow you 
probably have like another minute or so to go, and when it is 
red if you could follow up and try to close your statements 
that would be appreciated. Remember, all your testimony has 
been given to us, and believe me, we have all read it.
    First I would like to--again, Mr. Sharp, if you would start 
with your testimony.

 STATEMENT OF MATTHEW SHARP, SENIOR ADVOCATE, CALIFORNIA FOOD 
                        POLICY ADVOCATES

    Mr. Sharp. Good morning, Madam Chairwoman, members of the 
panel. My name is Matthew Sharp. I work with California Food 
Policy Advocates in Los Angeles, as you heard in my kind 
introduction from Congresswoman Chu. Like you, we are very 
concerned about the impact of the recession on hunger, food 
insecurity, and obesity.
    The purpose of my testimony today is to share progress from 
California and identify next steps for Congress to strengthen 
and expand the child nutrition programs. Among all the possible 
topics, I would like to focus my brief remarks on a terrific 
and underused tool called direct certification.
    As you heard in the chairwoman's opening statement, direct 
certification is required in the programs. It is a data-driven 
method of automatically enrolling low-income students that 
receive SNAP, formerly known as food stamps, or TANF, or the 
food distribution program on Indian reservations--international 
school lunch program for free meals.
    There is a highly accurate method of establishing 
eligibility and it is extremely inexpensive because the 
information was already collected by another government agency. 
Expanded by Congress and this committee in 2004, it is an 
important part of how the child nutrition programs work.
    I wanted to share with you a little progress in California. 
Since 2004, we passed a state law that established a statewide 
database to match all the students at a statewide level who are 
receiving SNAP into the school meals program. That has resulted 
in a 37 percent increase in the number of students matched into 
free school meals, so that is an enormous amount of time and 
expense that local school principals, secretaries, and food 
service officials do not have to spend time on.
    It is an amazing area of progress. It is doing great things 
for a lot of kids. But some students are still missing out on 
the benefits of free and nourishing meals, so some innovations 
are needed to enroll more students and to provide them with the 
good nutrition that Congress intended.
    There are two simple ways to think about the solutions. One 
is to focus on individual children.
    In California, 1.3 million low-income students who receive 
Medicaid or S-CHIP public health insurance that verifies their 
household income are not benefiting from automatic enrollment 
into school meals. There may be at least 3 million more 
nationwide. Simply put, Congress should permit use of Medicaid 
and S-CHIP data to enroll already-eligible children into free 
meals.
    Second way to think about individual children would be to 
ensure that more students are captured within the existing 
system. More than two in five eligible children in 16 states 
are not automatically enrolled. Congress should also provide 
the tools and incentives so that states reach all the eligible 
SNAP and TANF participants with this data-driven, accurate 
method of enrolling students.
    The second way to think about the solutions is a focus on 
schools. A thousand schools in low-income areas of California 
that serve over a half million children--an enormous number of 
kids in an enormous number of schools--have very high rates of 
free and reduced-price enrollment in the meals program. And 
enormous number of kids are directly certified in these 
schools, yet they still love to collect paper applications for 
a remainder of those student bodies.
    And so we think that Congress ought to take steps to 
provide schools the opportunity of using direct certification 
rates as a basis for automatic enrollment into means. Simply 
put, school food services ought to be tossing salads instead of 
pushing paper. Families are spending too much time on 
antiquated and cumbersome and redundant paperwork. It is a 
simple fix for an enormous number of households.
    And to underline what you have heard from other panelists 
and what you have heard in the opening statements, there is an 
enormous amount of work to be done to ensure that these 
programs actually result in students receiving the meal 
benefits, not just being enrolled.
    And you are going to hear from some other panelists later 
today about creative strategies that Congress can provide 
incentives and tools to expand, including the breakfast in the 
classroom program, grab-and-go breakfast. There are a number of 
opportunities to strengthen these programs in a way that 
ensures that we get through the sequence of both establishing 
enrollment, providing kids the benefits, and ensuring they 
consume a nutritious meal at the school site.
    So I provided a lot more detail in the written testimony--
very copious amount of information about the solutions, about 
the problems, and about all the steps that Congress can take to 
underline these important tools and make sure they are fully 
utilized in your communities. I am happy to answer any 
questions you might have.
    [The statement of Mr. Sharp follows:]

 Prepared Statement of Matthew Sharp, California Food Policy Advocates

    Introduction. Good morning. My name is Matthew Sharp. I work for 
California Food Policy Advocates, in the Los Angeles Office. CFPA is a 
statewide nonprofit organization whose mission is to increase low-
income Californians' access to nutritious, affordable food. Since the 
1990s, I have worked with school districts and the state agency to 
increase the use of direct certification, a Congressionally-mandated 
system to automatically enroll children in free school meals, based on 
receipt of SNAP (food stamps) or Temporary Assistance for Needy 
Families (TANF) cash assistance benefits. This morning I will share 
with you the tremendous progress we've made in California--and across 
the nation--to strengthen this process. I also will identify the next 
steps for Congress to strengthen and expand direct certification.
    Background. SNAP and the child nutrition programs have offered a 
nutrition safety net for millions of needy families and children since 
the day they started. The nation's deep recession makes these programs 
more important than ever. With childhood food insecurity and obesity 
escalating at rates that reflect steeply increased unemployment and 
poverty, the healthy meals and snacks that the programs provide, the 
measurable gain in students' academic performance, and the savings that 
strapped families can realize with five less breakfasts and lunches to 
supply each school week are among the many extremely valuable benefits 
that the child nutrition programs can deliver.
    The easiest way for a low-income child to be enrolled for free 
school meals is through direct certification. When that process works 
correctly, any child who is enrolled for SNAP or TANF cash assistance 
is automatically enrolled for free school meals. The parents do not 
have to fill out another application or take any additional steps.
    Over the past 4 years, California has developed an entirely new 
statewide direct certification system that matches student databases 
from schools with SNAP and TANF records. In 2005, state legislation was 
enacted that required the state to develop a statewide data-matching 
system for direct certification if federal funding could be obtained. 
California secured USDA funding, provided under the Child Nutrition and 
WIC Reauthorization Act of 2004, and developed a state-of-the-art data-
matching system.
    The system was unveiled in 2007 and won a Best of California 
Project Excellence award from Center for Digital Government in 2008. By 
implementing data-based direct certification, California school 
districts have saved tens of millions of dollars of precious, scarce 
resources through reduced expenses collecting, processing and verifying 
paper applications. To its credit, the California Department of 
Education is not resting on its laurels; it has established a Direct 
Certification Advisory Committee to identify improvements to reach more 
children and make the system more user-friendly for school districts. 
CFPA is proud to serve on this committee along with food service 
directors, state officials, and other stakeholders and we have made 
recommendations for how to improve the direct certification matching 
process under current law. But there are important ways in which 
Congress can pave the way to reach more children and move the school 
meals program away from antiquated paper-based systems.
    Current Data. Unfortunately, the school meals programs miss an 
unsettling number of eligible, needy children. This underutilization is 
neither acceptable nor necessary. The numbers are sobering. 3.1 million 
students are eligible for free or reduced price meals in California. 
150,000 are directly certified using a statewide database and 550,000 
are estimated to be matched using local county-to school district 
matches; these numbers will reverse as California's statewide match 
improves steadily. According to a recent USDA report, these systems in 
California capture only 85% of students enrolled in SNAP and TANF--an 
improvement of 37% over 2004. Some of the children who are missed 
ultimately submit a duplicative paper application and get free school 
meals, but others miss out entirely on free meals, placing unnecessary 
strain on family budgets and potentially compromising their nutrition. 
Direct certification is an unusually effective tool because it 
increases program access, reduces administrative costs and strengthens 
program integrity.
    Legislative Improvements. Let me propose new ways to use direct 
certification in a sequence of four policy improvements to bring 
benefits to more students.
    First, direct certification, which currently permits children 
enrolled only in SNAP or TANF to be automatically certified for free 
school meals, needs to be expanded. We estimate that 1.3 million 
children who are income-eligible for free meals in California receive 
Medicaid and S-CHIP (Another 3 million or so students are similarly 
eligible nationwide; California's share is larger because too few 
students receiving public health insurance also participate in SNAP). I 
want to point out that these programs verify income-eligibility, 
rendering a school meals application duplicative. Unfortunately, 
students receiving Medicaid and S-CHIP, but not SNAP or TANF, are not 
automatically enrolled in free school meals because federal law doesn't 
permit direct certification based on Medicaid and S-CHIP data, and 
therefore must fill out a paper application for school meals each year. 
These children are living in poverty and are nutritionally needy--yet 
do not receive meal benefits that Congress intended. Using data from 
these health insurance programs to enroll children for free school 
meals would save money, help needy families, and reflect the 
indispensable role that healthy food must play in reducing the health 
care costs of nutrition related disease--diabetes, stroke, certain 
cancers and others.
    <bullet> Congress should authorize the use of Medicaid and SCHIP 
data to directly certify eligibility for free school meals.
    The second step is to provide states with tools and incentives to 
increase the rate of direct certification. Congress just took an 
extremely important step in this regard: the Conference Agreement for 
USDA's 2010 budget includes $22 million to provide grants to low-
performing states to improve direct certification. We urge Congress to 
take the next step and reward states that improve their performance or 
have already achieved great results. In 2002, SNAP began to offer 
bonuses to states that improved utilization of benefits, increasing 
efforts to modernize program access and operations. These bonuses are 
proving to be extremely effective motivators; they are good models for 
what could be done relatively inexpensively to encourage the states to 
realize Congress's goal of improving direct certification.
    <bullet> Congress should fund performance awards to encourage state 
agencies to increase direct certification rates.
    The third step in the sequence is to create a major simplification 
for schools struggling to serve extremely poor student bodies. School 
food workers in these schools should be tossing salad, not pushing 
paper. Congress should allow schools with high percentages of low-
income students to opt out of the standard application system and 
instead receive a meal reimbursement rate based on the school's direct 
certification numbers in exchange for serving free breakfasts and 
lunches to all students. Under existing law, schools engage in a 
costly, error-prone and extremely burdensome pursuit of paper 
applications and cafeteria meal tracking, essentially to weed out the 
small numbers of children who do not qualify for free or reduced price 
meals. This antiquated process is fraught with problems; the bottom 
line is that schools expend precious resources trying to collect and 
process pieces of paper and still many eligible children are excluded 
from good meals they need.
    Instead, a formula based upon the data-driven direct certification 
of children thoroughly screened and enrolled in other means tested 
programs could create a sea change by establishing a paperless 
eligibility process for the schools around the country that serve the 
highest concentrations of poor children. Such an option would help the 
neediest children, and at the same time reduce paperwork and free up 
resources for educational or nutrition improvements.
    Under a version of this proposal included in the Hunger Free 
Schools Act (S. 1343) we estimate that nearly 1000 schools in 
California's poorest neighborhoods could opt for this simplification if 
they have a strong direct certification process. More than half a 
million children attend these schools, representing 9 percent of all 
students in California. This option would create an incentive for the 
state to improve SNAP participation rates and the effectiveness of the 
direct certification process while providing important administrative 
relief to struggling schools and a more welcoming cafeteria for many of 
our poorest students.
    <bullet> Congress should direct USDA to use a high rate of direct 
certification, perhaps over 60% of students, as a basis for 
reimbursement rates in lieu of applications in schools that agree to 
serve all meals free.
    The final step is to encourage schools to take steps to capitalize 
on improved direct certification to ensure all children participate in 
school meals, particularly in school breakfast, which presently serves 
less than half the low-income children who eat a school lunch. In 
California, one dozen districts have implemented classroom breakfast in 
some schools, with San Diego leading the state with 39 schools serving 
breakfast to every student after the bell rings.
    The results--attentive, well nourished students, better test 
scores, better health, a proven obesity prevention strategy, important 
revenues for school cafeteria funds--all over the country have been 
truly amazing. As you've heard from other panelists, school breakfast 
is the most important meal in an academic day--and the most 
underutilized school meal, with only 39% of California's low-income 
lunch participants benefiting from breakfast at school. Classroom 
breakfast, based upon direct certification that gathers all the 
eligible children, is a realistic and doable strategy to reach the 
President's goal of eliminating childhood hunger by 2015. The Student 
Breakfast and Education Improvement Act of 2009 (S.1480/H.R. 3277) 
proposes competitive grants to expand school breakfast participation.
    <bullet> Congress should provide grants to school districts to move 
breakfast into the classroom or to another service model that occurs 
after the bell rings.
    I am happy to answer any questions you might have.
                                 ______
                                 
    Chairwoman McCarthy. Thank you. And let me tell you, my 
staff loves data, so don't worry about that. We love it.
    Next, Mary?

  STATEMENT OF MARY A. LAGNADO, ASSISTANT SUPERINTENDENT FOR 
  BUSINESS AND MANAGEMENT SYSTEMS, WESTBURY UNION FREE SCHOOL 
                            DISTRICT

    Ms. Lagnado. Good morning. I am Mary Lagnado--I didn't put 
the--okay, can you hear me now? Am I okay?
    I am Mary Lagnado. Good morning. I am the assistant 
superintendent for Westbury Public Schools, and today I would 
like to acknowledge that I am accompanied by our president of 
the board of education, Karen Campbell, and our food service 
manager, Mike Ongus. And is an honor to present to you today 
the Westbury School District's innovative strategies in 
providing a healthy breakfast and to help students raise 
alertness and performance.
    The Westbury School District in Westbury, New York, began 
the Universal Breakfast Program as a pilot program in March 
2009 with the goal of providing students with the proper 
nourishment to start their school day. The connection between 
nutrition and optimal learning has become increasingly clear, 
and the Westbury School District's commitment to this program 
is part of our overall mission to educate the whole child and 
help every child succeed.
    We currently serve a population of 4,200 children, with 
four elementary schools, one middle school, and one high 
school. Our demographics are such: 61 percent Hispanic; 35 
percent Black; 2 percent White; 1.1 Asian; 0.3 multiracial; and 
0.2 American Indian. Approximately one-third of our student 
body are English language learners.
    Our free and reduced lunch rate is 84 percent. As you know, 
that is what denotes the percentage of families living at or 
below the poverty level.
    With the current pilot program at the pre-K and the 
kindergarten levels, students are served a hot and cold 
breakfast in their classrooms, while at the elementary and 
secondary levels student who wish to participate eat a hot and 
cold breakfast in the cafeteria. As Congresswoman McCarthy has 
said, students are led directly by the school staff from their 
busses into the cafeterias to eat this breakfast.
    We will fully implement the Breakfast on the Go program 
this coming November, and we are thrilled about it, with the 
goal of making breakfast accessible to every student. Under 
this program, pre-kindergarten and kindergarten students will 
continue to eat breakfast in their classrooms while elementary-
level students will receive the bagged or boxed breakfast upon 
existing their school bus to eat in their classrooms, and the 
other student at the secondary level will arrive by bus 15 
minutes earlier to allow more time to eat their breakfast.
    As a background, in 2004 an obesity study was performed in 
our schools--in our high school--by the school nurse which 
indicated that a majority of our high school students were 
overweight. To address the health eating solutions, the 
superintendent, the high school nurse, and I decided on a 
specific course of action and we formed the nutrition committee 
with the overall idea to affect a paradigm shift in the food 
served and selected in the school cafeterias through awareness 
and a district-wide commitment to helping students and the 
community--the idea of sustaining a balance in metabolism to 
permit sustained concentration and endurance for more effective 
and efficient student achievement is the heart of the purpose.
    We formed an action plan, and what better to start with, 
the need of the day, breakfast. That was the aim of this 
nutrition committee.
    We had a plan of action where we collected data, we visited 
the schools, we observed the food choices available in the 
cafeteria, we had vendors present nutritious choices for us to 
consider, we shared recommendations with the staff for changing 
the school menu not only to replace drinks and snacks with the 
more nutritious ones, but this is the following what we did: We 
replaced white flour bagels with whole wheat bagels, multigrain 
muffins, and non-sugar cereals. We reduced the portion of high-
content carbohydrate foods and added fresh fruits and 
selections.
    We also drafted our wellness policy, which included 
nutritional guidelines and had food choices for our board of 
education to approve. We also recognized that we needed to have 
different eating habits and include exercise.
    In addition to this, we also started Family Nutrition 
Information Nights. These are held at night at our elementary 
schools, and the workshops are conducted by medical 
professionals. And one of these partnerships institutions is 
the Institute for Healthcare Disparities at the Nassau 
University Medical Center. A demonstration using cultural foods 
to prepare healthy meals and samples of healthy snacks as well 
as cookbooks in English were distributed, so we are really 
thinking out of the box.
    In summary, the interesting thing is that nurses now--
school nurses have reported that there has been a substantial 
increase in awareness that nutrition has on students' health 
and performance. District data shows an improvement in the ELA 
and math scores on the New York State Assessment. Academic 
intervention strategies coupled with the Health Choice 
Initiative have resulted in this improvement.
    Traditionally, students are more alert and engaged in 
morning classes in large measure due to the impact that these 
healthy choices have made in the overall wellbeing. Our high 
school principal has observed that students are less lethargic 
and more focused. In addition, building administrators have 
noted less disruptive behavior in the classrooms and the 
hallways.
    So we are very pleased with the Breakfast on the Go 
program. We are going to institute it in November. We were very 
successful. The results were that we have increased our 
breakfast participation by 25 percent using this new 
initiative, and I just wanted to tell Congress how important 
this program is to a school like ours, which is a high-needs 
district, and we really use the funds.
    What I would like to recommend is that districts be given 
more commodity foods that can be used in preparing the 
breakfast menus, and also that there would be an increase in 
the per-meal reimbursement to school districts as a financial 
incentive to school districts to make the program more 
financially feasible. Thank you.
    [The statement of Ms. Lagnado follows:]

  Prepared Statement of Mary A. Lagnado, Assistant Superintendent for 
                        Westbury UFSD, New York

       westbury school district's ``breakfast on the go'' program
                      gets students ready to learn
    The Westbury School District in Westbury, NY began the Universal 
Breakfast Program as a pilot program in March, 2009, with the goal of 
providing students with the proper nourishment to start their school 
day. The connection between nutrition and optimal learning has become 
increasingly clear, and the Westbury School District's commitment to 
this program is part of our overall mission to educate the whole child 
and help every child succeed. With the current pilot program, at the 
Pre-Kindergarten and Kindergarten levels, students are served a hot and 
cold breakfast in their classrooms, while at the Elementary and 
Secondary levels, students who wish to participate eat a hot or cold 
breakfast in their school cafeteria. (Students are led by school staff 
directly from the bus to eat breakfast.) Currently, at the Pre-K and 
Kindergarten levels, approximately 570 breakfasts are served daily, 
while at the Elementary level, 431 out of 1632 students participate, 
and at the Secondary level, 300 out of 1900 students participate. We 
will implement the ``Breakfast on the Go'' program in November, 2009, 
with the goal of making breakfast accessible to every student. Under 
this program, Pre-Kindergarten and Kindergarten students will continue 
to eat breakfast in their classrooms, while Elementary levels students 
will receive a bagged or boxed breakfast upon exiting their school bus, 
to eat in the classrooms, and students at the Secondary level will 
arrive by school bus 15 minutes earlier to allow more time to eat 
breakfast in their school cafeteria.
----------------------------------------------------------------------------------------------------------------
     Westbury Schools               Traditional Breakfast                  ``In the Classroom'' Breakfast
----------------------------------------------------------------------------------------------------------------
Pre K-K                    Served hot and cold; exit bus and go    Served hot and cold; exit bus and go to
                            to classroom; aides assist with         classroom; aides assist with delivered bag
                            delivered bag breakfast; 570 served     breakfast; 570 served
Elementary grades 1-5      Students who wish to participate eat    Box/bag breakfast is delivered to the
                            in the cafeteria; 431 of 1632 served    classroom; All 1632 served
Middle School Grades 6-8   Students who wish to participate eat    Box/bag breakfast is picked up before going
                            in the cafeteria; 125 of 800 served     to the classroom; All 800 served
High School Grades 9-12    Students who wish to participate eat    All students participate and have greater
                            in the cafeteria; 175 of 1100 served    choices in the cafeteria; 1100 served;
                                                                    Transportation scheduled for flexibility 15
                                                                    minuets earlier creating a relaxed
                                                                    atmosphere
----------------------------------------------------------------------------------------------------------------

                               background
    In 2004, a Wellness Committee was established with representatives 
from each of the district's six schools. An obesity study was performed 
at our High School by the school nurse that indicated that the majority 
of our high school students were overweight. To address the healthy 
eating solutions, the Superintendent, High School Nurse and I decided 
on a specific course of action. A Nutrition Committee was established 
with the overall idea to affect a paradigm shift in the foods served 
and selected in the school cafeterias and vending machines through 
awareness and a district-wide commitment to helping students and the 
community move away from carbohydrates, which turn to sugars in the 
digestive process, to foods that enhance activity and concentration. 
The idea of sustaining a balance in metabolism to permit sustained 
concentration and endurance for more effective and efficient student 
achievement in the physical and the academic areas is the heart of the 
purpose.
    We first set our goals and did so by being one of the first to 
implement our District Wellness policy in accordance with the re-
authorization act of 2004. Our next ingredient was to communicate. We 
achieved this by forming a district wide nutrition committee which 
consists of representatives from each of our schools, District 
Administrators, Students, as well as members of our community. This 
committee was charged with the task of monitoring the existing program, 
implementing any new programs and communicating our goals throughout 
the community. The committee also solicited new and exiting ways to 
introduce good nutrition as well as the importance of physical fitness 
and its part in making the body healthy. The group also reached out to 
local hospitals and organizations to help educate our families about 
proper nutrition.
    Family nutrition information nights are being held. Parents 
participate in interactive workshops conducted by medical professionals 
through a partnership with The Institute for Healthcare Disparities at 
Nassau University Medical Center. A demonstration using cultural foods 
to prepare healthy meals and samples of health snacks, as well as 
cookbooks in English and Spanish are provided.
                              demographics
    Student population--4,200 Pre-K--12, at four elementary schools, 
one middle school, and on high school--61% Hispanic, 35.4% Black, 2% 
White, 1.1% Asian, .3% Multiracial, .2% American Indian or Alaskan 
Native
    Free & Reduced Lunch--84%
    District Attendance--94%
    Graduation Rate--91% of which 80% are New York State Regents 
Diplomas
    The district employs 43 people in their Nutrition Program.
    Daily breakfasts served have increased from 985 to 1,240.
                              action plan
    We began by looking at food choices in our cafeteria. It started 
with the most important need of the day, breakfast. The Committee's 
Action Plan was the following:
    <bullet> Data collection: The Committee Members visited each of the 
schools to observe the food choices available and children's eating 
habits.
    <bullet> Invitations to vendors to present samples of more 
nutritious choices.
    <bullet> Visiting schools to share recommendations with staff for 
changing the school breakfast menu, to not only replace drinks and 
snacks with more nutritious ones but to:
    <bullet> Replace white flour bagels with whole wheat bagels, 
multigrain muffins and non-sugar cereals.
    <bullet> Reduce the portion sizes of high content carbohydrate 
foods, and
    <bullet> Add fresh fruit selections.
    <bullet> Announcing a teacher led class contest to create a 
nutritional value chart for the cafeteria display to promote 
nutritional awareness.
    <bullet> Drafting a Wellness Policy which includes nutritional 
guidelines.
    <bullet> Drafting a policy on Food Services Choices for approval by 
the Board of Education that would permit district-wide implementation 
of the recommended changes.
    <bullet> Recognizing each school that makes substantial changes in 
eating habits and exercise.
    <bullet> Recognizing the community member responsible for brining 
this endeavor to the attention of the local Lion's Club and Rotary Club 
who responded by supplying the involved grade levels with bushels of 
apples for field day.
                                summary
    School nurses report that there has been a substantial increase in 
the awareness that nutrition has on being healthy and student 
performance. The district's population is 84% free and reduced lunch 
(denoting the percentage of families living at or below the poverty 
level). The majority of the students are English Language Learners. 
District date shows an improvement in the ELA and math scores of this 
population on the New York State Assessments. Academic intervention 
strategies are coupled with the Healthy Choices Initiative resulting in 
this improvement. Traditionally, students are more alert and 
participatory in the morning classes in large measure due to the impact 
that the healthy choices make on their metabolism from the breakfast. 
The secondary teachers see an improvement in the attendance rates in 
the afternoon classes and in the class participation of students in 
these classes.
    All constituents agree that there has been a significant emphasis 
placed on food choices and exercise by the schools; that teachers are 
embedding discussion about nutritional ingredients and their effects on 
performance in their instruction; that Parent Workshops an Newsletters 
contain information on the components of Healthy Lifestyles: food 
choices and exercise; that administrators and teachers are making 
better choices as a result of serving as role models for the students 
and community, and that staff and parents are designing after-school 
support groups (exercise and diet clubs) for themselves and students.
    In an effort to promote nutrition awareness and further demonstrate 
Westbury's commitment to the education of children on the importance of 
balanced nutrition and its direct correlation to learning, we 
implemented a pilot breakfast program. This program known as a 
``Universal Breakfast'' provides a free ``on the go'' breakfast to each 
student in each school. This program was very successful and confirms 
our goal to provide accessibility to all students. Students are 
encouraged to arrive to school early to eat a healthy breakfast prior 
to the start of the instructional program so that they can be ``fit'' 
for learning.
                            recommendations
    To make this program more feasible for school districts, our 
recommendations to Congress are the following:
    1. Give school districts more commodity foods that can be used in 
preparing breakfast meals.
    2. Increase the per-meal reimbursement to school districts, as a 
financial incentive to school districts, and to make the program more 
financially feasible.

    Ref: The literature is rich with reference to the effects of proper 
eating habits on school children's intelligence and academic 
performance (Bogden, J.F. Fit, healthy, and ready to learn: a school 
health policy guide. Alexandria, Va.: NASBE, 2000: Schoenthaler, S. 
Abstracts of early papers on the effects of vitamin mineral 
supplementation on IQ and behavior. Personality and Individual 
Difference 1991). There is also substantial evidence of the effects of 
improper diets on school achievement (American School Food association. 
Impact of hunger and malnutrition on student achievement. School Board 
Food Service Research Review 1989).
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mary.
    Mr. De Burgh?

      STATEMENT OF RICHARD DE BURGH, PRESIDENT, DJ CO-OPS

    Mr. De Burgh. Chairwoman McCarthy, Ranking Member Platts, 
and members of the Subcommittee on Health Families and 
Communities, everything a food service director buys, except 
commodities, they buy what they want, from whom they want, when 
they want it, delivered where they want it. Why is it except 
commodities?
    As examples, in California we used to receive frozen 
chicken from Arkansas. We would then send the chicken back to 
Arkansas to be made into chicken nuggets and they would send it 
back to us to serve to schoolchildren.
    In Michigan and Ohio they would receive cheese from 
Wisconsin. They would then pay to have the cheese sent back to 
Minnesota to be made into pizza and then sent back to them 
again.
    Twenty years ago I led a group of 11 other directors and we 
fought for 3 years and, with the help of members of Congress, 
we were able to form a cooperative and receive direct delivery 
of our commodities, both to ourselves and to the processors we 
choose. We now hold over 1,000 school districts serving 2 
million lunches a day. The districts range in size from over 
37,000 to as small as 21.
    In many states even today, the directors have no choice on 
where their commodities are processed. In fact, one state 
doesn't even process commodities.
    In many states, commodities are delivered once a month to 
one location and each district must fund and provide a 
warehouse, a freezer, or a refrigerator and then transport 
those foods from the one location to all the schools in the 
district. Directors are forced to develop menus based on 
commodities rather than menus that customers want, which is one 
of the things that my colleague just referred to.
    The cooperative system changes all of that. Because of the 
changes in the farm bill several years ago and changes in 
industry, we are now providing choices that are both healthy 
and customer-friendly. By April of each year, our member 
districts know where 95 percent of their commodities are going 
and when they are going to be delivered. They choose what they 
want and they are getting it.
    For example, USDA provides chicken at least eight different 
ways. Our members can receive deliveries directly at each 
school or have it processed by processors into over 150 
different items. In other words, we offer more choices than 
Starbucks does coffee.
    Our purchasing contracts ask each vendor to agree to sell 
to our districts for the lowest price in the state. All except 
one have agreed to do that, and that one went bankrupt this 
year. We have returned over $1 million in volume discounts to 
our local school districts. In fact, many of our members 
receive more money from us in volume discounts than they pay us 
to coordinate their commodities. This past year, for the first 
time, we tied our contracts to the commodity market and the 
commodity market went down and our prices were down 
significantly.
    We provide fresher, more nutritious commodity items. This 
past year, with excellent support from USDA, we were able to 
implement a pilot project offering fresh sliced apples in 
individual packets to our districts. Pavel Matustik, who has 
testified before this committee, has an innovative food service 
program, and I worked for over 2 years to replicate the 
commercial delivery system for fresh produce using entitlement 
dollars.
    The program was an overwhelming success in the eight states 
that piloted it, and hopefully we will be able to expand it to 
include carrots and oranges and grapes. Kids will eat sliced 
apples, where they will throw away a whole apple.
    Stephen Ambrose, in his book on the construction of the 
Transamerica railroad, made an interesting observation. In the 
18th century, railroad barons were the wealthiest people in 
America. Today they don't exist.
    The railroad barons should have considered themselves to be 
transportation innovators, not railroad barons. We need to do 
the same rethinking in commodity foods and distribution. 
Business as usual should become an unusual practice.
    I am hopeful that this committee will assist us in allowing 
more innovation. How? I am glad you asked.
    USDA has been innovative in allowing better business 
practices. These practices, such as allowing districts to form 
cooperatives and arrange direct delivery by their commercial 
distributors, should be permitted in all states.
    All states receive federal money for state administrative 
expenses. Some of this money is earmarked for commodity 
distribution, but some states use it for other purposes. USDA 
delivers commodities by the truckload for free inside of a 
state. If a state does not distribute the commodities, there 
should be no charge. In California this charge amounts to $5 
million a year taken from local school districts.
    Continue to encourage and expand substitutability. USDA is 
implementing a new technology to simplify and improve 
purchasing and distribution. Use this to review current 
business practices at the federal level, the state level, and 
the local level. If we were to redesign commodity distribution, 
it would look nothing like it started 60 years ago.
    In closing, I would like to say our customer has changed. 
When I was growing up there were no chicken nuggets, there were 
no happy meals. Families ate at home.
    Today more than 50 percent of the family's food budget is 
spent on food prepared outside the home. When a parent today 
says it is time for dinner many children don't know whether to 
run to the kitchen or the car.
    We need innovation in the national school lunch program so 
that when a child is asked where do they want to go for dinner 
they will say, ``School.'' Thank you.
    [The statement of Mr. De Burgh follows:]

      Prepared Statement of Richard De Burgh, President, DJ Co-Ops

    Chairwoman McCarthy, Ranking Member Platts and Members of the 
Subcommittee on Healthy Families and Communities, everything a food 
service director buys, except commodities, is what they want, from whom 
they want, when they want it, delivered where they want it, by whom 
they want to deliver it. Why is it except commodities?
    As examples, in California we would receive frozen chicken from 
Arkansas and pay to have it sent back to Arkansas to be made into 
chicken nuggets and sent back to us. In Michigan and Ohio they would 
receive cheese from Wisconsin and pay to have it sent to Minnesota to 
be made into pizza and returned to them. Twenty years ago I led a group 
of 11 other directors and we fought for 3 years and with the help of 
members of Congress were able to form a cooperative and receive direct 
delivery of our commodities. We now help over 1,000 school districts 
serving almost 2,000,000 lunches a day. The districts range in size 
from 37,575 lunches a day to as small as 21.
    In many states, even today, the directors have no choice of where 
their commodities are processed. One state does not even allow 
processing. The commodities are delivered once a month to one location 
and each district must provide warehouse space and delivery to school 
locations. Directors are forced to develop menus based on commodities 
rather than menus that customers want.
    The cooperative system changes all of that. Because of the changes 
in the farm bill several years ago and changes in industry we are now 
providing choices that are both healthy and customer friendly. By April 
of each year, our member districts know where 95% of their commodities 
for the next school year are being delivered. They choose what they 
want and when they are getting it.
    As an example, USDA offers chicken in at least 8 different ways. 
Our members can receive deliveries directly at each school or have it 
processed by any of over 7 processors into over 150 different items. 
The same is true of beef, cheese and many other commodities. In other 
words, USDA offers as many chicken choices as Starbucks does coffee!
    Our purchasing contracts ask each vendor to agree to sell to our 
districts for the lowest price offered in the state. All except one 
have agreed and that one filed for bankruptcy this school year. Because 
we make the purchasing contracts easier for the manufacturers, we 
provided over $1,000,000 in volume discounts to our members this past 
school year. This is on top of the lowest prices in the state. In fact 
many of our members receive more money from us in volume discounts than 
they pay us to coordinate their commodities.
    We can provide fresher more nutritious commodity items. This past 
year with, excellent support from USDA, we were able to implement a 
pilot project offering fresh, sliced apples in individual packets to 
our districts. Pavel Matustik (who has testified before this committee) 
and I worked for over 2 years to replicate the commercial delivery 
system used for fresh produce using entitlement dollars. The program 
was an overwhelming success and hopefully will be expanded to include 
carrots, oranges and grapes.
    The districts in the co-op can trade with other districts in the 
co-op. When menus are changed, food orders can also be changed.
    Stephen Ambrose in his book on the construction of Transamerica 
railroad made an interesting observation. In the 19th century railroad 
barons were the wealthiest people in America. Today they do not exist. 
The railroad barons should have considered themselves transportation 
innovators not railroad barons. We need to do the same rethinking in 
commodity food purchasing and distribution. Business as usual should 
become an unusual practice.
    I am hopeful that this committee will assist us in allowing more 
innovation. How? I'm glad you asked. USDA has been innovative in 
allowing better business practices. These practices such as allowing 
districts to form cooperatives and arrange direct delivery by their 
commercial distributors should be permitted in all states.
    All states receive federal money for state administrative expenses. 
Some of this money is earmarked for commodity distribution but states 
use it for other purposes. USDA delivers the commodities by the 
truckload for free. If a state does not distribute the commodities 
there should be no charge. In California this charge amounts to five 
million dollars taken from local school districts.
    Continue to encourage substitutability. When a distributor or 
processor can certify to USDA that an item is of the same quality as 
the USDA specifications and is of American origin substitution should 
be allowed.
    USDA is implementing new technology in WEBSCAM to simplify and 
improve purchasing and distribution. When this is up and running a 
review of current business practices should be implemented from the 
federal to the state to the district level to see what improvements and 
innovations could be made.
    In closing I would like to say our customer has changed. When I was 
growing up there were no chicken nuggets, there were no happy meals, 
families ate at home. Today more than 50% of the family food budget is 
spent on food prepared outside the home. When a parent today says 
dinner is ready many children do not know if they should run to the 
kitchen or the car! We need innovation in the national school lunch 
program so that when the child is asked where they want to go for 
dinner their answer is school!
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much for that 
information. Appreciate it.
    Ms. Yargar-Reed?

 STATEMENT OF DEBORAH YARGAR-REED, PHYSICAL EDUCATION TEACHER, 
                 BIGLERVILLE ELEMENTARY SCHOOL

    Ms. Yargar-Reed. Thank you, Chairman McCarthy and members 
of the subcommittee for inviting me to testify today. I want to 
offer a special thank you to Ranking Member Todd Platts, my 
school's local congressman.
    More time in front of the television and computer screens 
and less at play coupled with increase calorie intake are 
packing the pounds on today's youth. In the Upper Adams School 
District we wanted to meet this challenge head on, and 
therefore we have come up with various strategies and programs 
to implement new ideas of physical activity and nutrition into 
our students' daily routine.
    The Upper Adams School District is located in rural South 
Central Pennsylvania, which covers a geographical area of 90 
square miles. The approximate population of the residents is 
10,000. The size of the school district itself is 1,729 
students, which encompasses five schools--three elementary, one 
middle school, and a high school.
    In 2006 I attended the Wellness Institute at Dixon 
University. Requirements for this class included the creation 
and implementation of a wellness project within the Upper Adams 
School District. This policy became our district's Local 
Wellness Plan, as required by the 2004 Nutrition Act, and we 
began implementation of this plan in the 2006-2007 school year.
    Activities which have developed out of the wellness plan 
include a monthly event which engages the students and staff in 
physical activity and nutrition. A few of these events include 
a tailgate activity, which promotes school spirit, physical 
activity, and nutrition for all students to participate 
followed by a healthy snack of fruits and vegetables.
    The tailgate activity takes place in September. After the 
children have participated in their football challenges, they 
have a snack consisting of fruits and vegetables and the 
parents have provided the snack for the students.
    In Apple Crunch, schools across Pennsylvania celebrate the 
Great American Apple Crunch. The event was organized by 
Pennsylvania Advocates for Nutrition and Activity, better known 
as PANA. At this even, local fruit farmers in our area donate 
the apples.
    Go Green: a statewide celebration that takes place in March 
that helps schools and communities focus on the important role 
of vegetables as part of a healthy diet. This event is held in 
partnership with Pennsylvania Department of Agriculture and 
supports National Nutrition Month.
    Market Basket of the Month brings together the school 
cafeteria, classrooms, home, and community through a strategic 
effort to promote healthy habits for students. Wellspan 
provides this opportunity for our school district. We are 
currently one of six school districts across Pennsylvania who 
have been selected to implement this Market Basket program.
    Taste Testing is a favorite event for the students. It is 
food sampling, better known as ``the polite bite.'' Students 
are encouraged to try a new fruit of vegetable and then asked 
to go home and share the experience with their family. Examples 
of some of the fruits sampled have been kiwi, star fruit, 
mango, pomegranate, just to name a few.
    I am pleased to share with you changes that have been 
implemented in our school cafeteria as a result of the 
collaborative nature of the Local Wellness Plan. Rather than 
serve whole milk, students may choose from 1 percent or fat-
free milk. White bread is something of the past; sandwiches are 
served either on bread or rolls which are multigrain or wheat.
    A change has been made from potato chips to the baked chip. 
Rather than serve students baked goods daily, the cafeteria has 
done away with that and now serves fruit--fresh fruit or 
canned.
    Our district has created a School Health Advisory Council 
networking forum to oversee the wellness policy implementation. 
Our committee consists of school administrators, physical 
education teacher, health teacher, family consumer science 
teacher, school nurse, food service personnel, parents, 
guidance counselor, and representatives from Wellspan, which is 
our local health care organization.
    Initially the Advisory Council was created to advise and 
recommend nutrition standards to the school board and 
administrations through our wellness policy. The first task of 
the council was to draft a written wellness policy. Now that 
the draft has been accepted, the Advisory Council makes 
recommendations on activities to the school board, such as the 
PANA activities, that the individual schools participate in. 
The Advisory Council also reviews potential school fundraisers 
to ensure they fall within the wellness plan.
    The Advisory Council meets four to five times a year. To 
date, the recommendations of the Advisory Council have been 
received with mixed reaction. We have experienced different 
levels of support through the district for our efforts.
    In closing, study after study proves what educators have 
long believed to be true: When a child's basic nutrition and 
fitness needs are met they have the cognitive energy to learn 
and achieve. Schools continue to be a core place for students 
to learn and practice healthy eating habits and can also be a 
primary place to gain the knowledge, motivation, and skills 
children need for lifelong physical activity.
    Schools are in a unique position to address children's 
eating habits and be instrumental in efforts to reduce 
childhood obesity because of the significant amount of time 
that children spend in school and the number of children 
enrolled. We are trying to make the students aware of this each 
day as we promote the healthy choices and physical activity in 
fun and creative ways.
    I feel that on a local level we have made a real difference 
in the lives of our students by making them aware that small 
changes they do can be healthy. My job is to offer education to 
enlighten students what small steps are possible, like drinking 
1 percent milk or going for a walk with their parents after 
dinner instead of sitting in front of the television. These 
decisions can make a big difference in their overall health, 
and therefore their life.
    Thank you for allowing me to testify today, and I look 
forward to your questions.
    [The statement of Ms. Yargar-Reed follows:]

Prepared Statement of Deborah Yargar-Reed, Physical Education Teacher, 
                     Biglerville Elementary School

    Thank you Chairwoman McCarthy, and members of the Subcommittee, for 
inviting me to testify today. I want to offer a special thank you to 
Ranking Member Todd Platts, my school's local Congressman.
    Across the nation, obesity is on the rise in both children and 
adults, taking a toll on our quality of life. The prevalence of obesity 
among children aged 6 to 11 more than doubled in the past 28 years, 
going from 6.5% in 1980 to over 17.0% in 2008.
    Obesity is the result of caloric imbalance (too few calories 
expended for the amount of calories consumed). Obese youth are more 
likely to have risk factors for cardiovascular disease, bone and joint 
problems, sleep apnea, social/psychological problems and lower academic 
achievements.
    More time in front of the televisionand computer screens and less 
at play, coupled with increased calorie intake, are packing the pounds 
on today's youth. In the Upper Adams School District wewanted to meet 
this challenge head on and therefore we have come up with various 
strategies and programs to implement new ideas of physical activity and 
nutrition into our student's daily routine.
    The Upper Adams School District is located inrural South Central 
Pennsylvania, and covers a geographical area of 90 square miles. The 
approximate population of the area is 10,000 residents. The size of the 
school district itself is 1,729 students which encompasses 5 schools (3 
elementary, 1 middle school and a high school). Each year the Body Mass 
Index (BMI) is measured of each student within the district. I would 
like to share the statistics for the past 2 school years.
    In the 2008-2009 school year there were 891 elementary students 
enrolled:
    <bullet> 26 students had a BMI under the 5th percentile;
    <bullet> 123 students had a BMI in the 85th--95th percentile, 
putting them in the ``at risk'' category; and
    <bullet> 208 students had a BMI greater than the 95th percentile, 
putting them in the ``obese'' category.
    In the 2007-2008 school year there were 898 elementary students 
enrolled:
    <bullet> 18 students had a BMI under the 5th percentile;
    <bullet> 163 students had a BMI in the 85th--95th percentile, 
``putting them in the ``at risk'' category; and
    <bullet> 202 students had a BMI greater than the 95th percentile, 
putting them in the ``obese'' category.
    In 2006, I attended the Wellness Institute at Dixon University. 
Requirements for the class included the creation and implementation of 
a wellness project within the Upper Adams School District. This policy 
became our district's Local Wellness Plan, as required by the 2004 
Child Nutrition Act, and we began implementation of the plan in the 
2006-2007 school year.
    Activities, which have developed out of the Wellness plan, include 
a monthly event which engages the students and staff in physical 
activity and or nutrition. A few of these events include:
    Jump rope for heart--thirty minutes of ``physical activity'' daily. 
An event which raises money for the American Heart Association.
    Tailgate activity--to promote school spirit, physical activity and 
nutrition for all students to participate, followed by a healthy snack 
of fruits and vegetables. The tailgate activity takes place in 
September. All students are encouraged to wear their favorite football 
jersey on tailgate day. The students engage in football related 
physical activities such as passing a football, running and carrying a 
football, and punting a football. After all the students have played 
their football challenges they are then given healthy snacks which 
consists of fresh fruits (grapes, watermelon, apples, oranges, 
cantaloupe) and vegetables (carrots, cucumbers, broccoli) as well as 
100% fruit juice. Parents provide the healthy snack for the students to 
enjoy.
    Apple crunch--schools across Pennsylvania celebrate the Great 
American Apple Crunch. This event was organizedby the Pennsylvania 
Advocates for Nutrition andActivity (PANA). (PANA works with schools to 
help promote healthy eating and physical activity to prevent child 
obesity.) At this event, local fruit farmers in the area donate apples.
    Go Greens--a statewide celebration that takes place in March that 
helps schools and communities focus on the important role of vegetables 
as part of a healthy diet. The event is held in partnership with the 
Pennsylvania Department of Agriculture and it supports National 
Nutrition Month and the consumption of Pennsylvania produce.
    All Children Exercise Simultaneously (ACES)--by gubernatorial 
proclamation, the first Wednesday in May is the state's annual Keystone 
Healthy Zone Event Day, which also coincides with the worldwide 
observance of ACES day to promote good fitness habits.
    Family Fitness--a monthly evening program designed for students and 
their families to come out and exercise and participate in scheduled 
activities and share a healthy snack.
    Market Basket of the Month--brings together the school cafeteria, 
classrooms, home and community through a strategic effort to promote 
healthy habits for students. Objectives include knowledge and 
familiarity with a variety of fruits and vegetables as well as 
participation in daily physical activity. Wellspan provides this 
opportunity for our school district. We are currently one of six school 
districtsacross PA who have been selected to implement this Market 
Basket program.
    A Family in Motion--This project is part of our Growing Healthy 
Kids School Partnership with Wellspan Health. The healthy Fitness Zone 
School Partnership programs are designedto help young children get into 
the habit of being physically active. The program features a backpack 
filed with fun activity ideas and equipment for family activity time 
and help children develop motor skills. The backpack is taken home with 
each student for a one week timeframe.
    Eat Smart Play Hard--an educational two-part series program 
presented by Wellspan. The ABC's of healthy eating (Adjust portion 
size,Be a labelreader and Choose more healthful foods). Participants 
help to prepare a sampling of healthy foods. Bring your sneakers--we 
are on the move is part two of the series. These are creative ways to 
decrease screen time andget the family moving.
    Culminating activity--the students went on a fieldtrip to the local 
grocery store.This helpedsupport nutrition principles that focus on the 
importance of making sensible food choices to build a healthy body. 
Students also became familiar with how to read a food label.
    Taste Test--a favorite event for the students is food sampling, 
better known as the polite bite. Students are encouraged to try a new 
fruit or vegetable and then asked to go home and share that experience 
with their family. Examples of fruits sampled include: kiwi, star 
fruit, mango, pomegranate just to name a few.
    I am pleased to share with you changes that have been implemented 
in our school cafeteria, asa result of the collaborative nature of the 
Local Wellness Plan. Rather than serve whole milk students may choose 
from 1% or fat free milk. White bread is something of the past. When 
sandwiches are served either on bread or rolls they are now multi-grain 
or wheat. A change has been made from potato chips to the ``baked 
chip.'' Rather than serve students baked goods daily the cafeteria has 
done away with that and serves fresh fruit or canned fruit. Baked goods 
are now a ``WHOA'' food in our cafeterias. Snacks that the students may 
purchase after finishing their lunch are healthier selections as well.
    The cafeteria has posted the following signs around for the 
students to have a better understanding of ``GO,'' ``SLOW,'' and 
``WHOA'' foods. Teaching the students this concept will help them make 
smarter food choices:
    <bullet> ``GO'' foods are those that can be eaten almost anytime;
    <bullet> ``SLOW'' foods are those that should only be eaten 
sometimes (at most only several times a week); and
    <bullet> ``WHOA'' foods are those that should only be eaten once in 
a while or on special occasions.
    Classroom teachers are no longer using candy as a positive 
reinforcement for those students who finish their homework or complete 
various tasks that are asked of the students. Rather a reward these 
days may be extra recess time.
    Our District has created a School Health Advisory Council 
networking forum to oversee the wellness policy implementation. Our 
committee consists of school administrators, physical education 
teachers, health teachers, family & consumer science teacher, school 
nurse, food service personnel, parents, guidance counselors, and 
representatives from Wellspan Organization (our local health care 
system).
    Initially the Advisory Council was created to advise and recommend 
nutrition standards to the school board andadministrators through the 
wellness policy. The first task of the council was to create a draft 
wellness policy. Now that the draft was accepted, the Advisory Council 
makes recommendations on activities to the school board, such as the 
PANA activities that individual schools participate in. The Advisory 
Council also reviews potential school fundraisers to ensure they fall 
within the wellness plan. The Advisory Council meets 4 or 5 times each 
year. To date, therecommendations of the Advisory Council have been 
received withmixed reactions. We have experienced different levels of 
support throughout the district for our efforts to focus on nutrition 
and physical activity.
    The Pennsylvania Advocates for Nutrition and Activity, known as 
PANA or more recently as NRG Balance, sponsors an annual campaign to 
recognize Pennsylvania schools and community centers for their work and 
commitment to ``make healthyeasy'' for the youth they serve. The 
campaign provides resources, materials, and training to help schools 
improve nutrition and physical activity. BiglervilleElementary School 
has been a member of this campaign since the2004-2005 school year. 
Biglerville has taken part in anumber of PANA activities through this 
campaign, including the Annual Webcast, Great Apple Crunch, and Go for 
the Greens.
    There are also professional development opportunities for the staff 
to participate in, including attending the Keystone Health Promotion 
Conference as well as the yearly Pennsylvania State Association of 
Health, Physical Education, Recreation and Dance (PSAHPERD) conference. 
New ideas and insight is gained to share with the staff and students in 
the area of Health and Wellness at these conferences.
    Change is not always a welcome initiative. However, in the Upper 
Adams School District we feel that if we keep plugging away and making 
contacts with various local personnel, and resources such as Wellspan, 
Penn State Extension offices, just to name a few, and continue to find 
funding through grant writing opportunities, we can maintain the path 
to wellness for our students. Of course, we have experienced some 
negative response to the suggestion of ``healthier'' choices, but that 
is becoming a thing of the past as we continue to promote the healthy 
choices.
    In closing, studyafterstudyproves what educators have long believed 
to be true: when a child's basic nutritional and fitness needs are met, 
they have the cognitive energy to learn and achieve. Schools continue 
to be a core place for students to learn and practice healthy eating 
habits, and can also be a primary place to gain the knowledge, 
motivation, and skills children need for lifelong physical activity. 
Schools are in a unique position to address children's eating habits 
and be instrumental in efforts to reduce childhood obesity because of 
the significant amount of time that children spend in school and the 
number of children enrolled in schools. Schools can impact children's 
eating habits through the foods offered, classroom health education 
presented and the messages students receive throughout the school 
environment. It is imperative students learn to live a healthy 
lifestyle.
    We are trying to make the students aware of this each day as we 
promote the healthy choices and physical activity in fun and creative 
ways. I feel that on a local level we have made a real difference in 
the lives of our students by making them aware that there are small 
changes they can do to be healthy. My job is to offereducation to 
enlighten students that small steps are possible, like drinking 1% milk 
or going for a walk with their parents after dinner instead ofsitting 
in front of the television. These decisions can make a big difference 
in their overall health and, therefore, their life.
    Thank you for allowing me to testify today and I look forward to 
your questions.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Tony?
    Could you put your mic on?

   STATEMENT OF ANTHONY GERACI, DIRECTOR, FOOD AND NUTRITION 
            SERVICES, BALTIMORE CITY PUBLIC SCHOOLS

    Mr. Geraci. Thank you for having me here, and thank you 
Chairwoman McCarthy, Ranking Member Platts, and all of the 
committee members. My name is Tony Geraci. I am a chef. I am 
the food service director for the Baltimore City public schools 
system, and I am here because my clients demand it. These are 
my clients behind me.
    I work for 85,000 kids, and these kids are sort of a 
living, breathing testimony of like how a schoolhouse rock 
program works. These guys used the U.S. Constitution to create 
a cafeteria bill of rights that simply demanded to have real 
food, fresh food every day.
    They went to the school board. They brought the then 
current school lunches and said, ``You guys eat this,'' and 
nobody would eat them. And then they said, ``So what is your 
expectation, then, that we should eat this stuff?''
    And because of that, the catalyst of change happened. I was 
hired; I was brought in. And so, you know, the real story here 
is our kids, all right?
    So we spend $174 billion, with a ``b,'' dollars every year 
fighting type two diabetes in this country. And I grew up in a 
generation where polio just about ravaged this planet, and we 
as a planet decided that we were going to do something about it 
and we changed that, and we just about eradicated that.
    One in every three children born after the year 2000 will 
contract this disease. One in two African American or children 
of color will contract this disease. This is preventable. This 
is something that we can change.
    And the good news is, we can change this. We will change 
this. And in Baltimore we are doing some very specific things 
to change this.
    So we took this 33-acre abandoned orphanage that was 
founded by a slave in the 1880s and we recreated it as the 
Great Kids Farm. As a chef I know the single most powerful tool 
to teach children about food is to reconnect them with food, 
all right? So if you give a kid an opportunity to plant a seed 
and they walk down this long line of tomatoes that they have 
just grown and they pluck a cherry tomato from a vine that is 
still warm from the summer sun and they plop that in their 
mouth and that flavor explodes, that is a moment you can't 
teach in a book; that is a moment that can only be experienced.
    And it is also a moment that forever changes the way a kid 
looks at food. It is no longer a consumptive thing, all right? 
They learn so much more. They learn about stewardship; they 
learn about the connection of who we are to the earth, to the 
planet, to the place that we live, you know? And so our Great 
Kids Farm has been this great transformation tool to help our 
kids to understand about healthy eating.
    We have done some pretty innovative things this year in our 
menu mix. We are the first school district in the nation to 
offer meatless Mondays, right? You know, and look, I have an 
unholy love of pork, all right? So this is not about denying 
people meat. This is about beginning a conversation about 
alternatives, beginning a conversation about change, and also 
having an opportunity to expose our kids to different cultures.
    Look, you know, there are great, you know, plant-based 
menus in all cultures, you know? Meat was a luxury not too long 
ago, you know? So the kids like it. It has been a lot of fun.
    We also recognize that breakfast is the single most 
important meal of the day, and as a chef I go to my pantry and 
I open the doors of my pantry and I look inside, and what I 
have are birds, right? I have ravens and orioles, right?
    So there is no sort of secret that, like, I created these 
Baltimore Raven purple breakfast boxes and, you know, Baltimore 
Orioles orange breakfast boxes and inside we have the lowest-
sugar cereals on the market, 100 percent juice, and a whole 
grain snack that is free of dyes and preservatives. And we do 
this--it is shelf-stable--and we do this so our kids can have 
grab-and-go breakfasts, breakfast in the classroom, second 
chance breakfast, you know?
    I also, on the inside of these boxes, one in 20 of these 
boxes has a little secret code and there is a prize, right? And 
I know it is real Pavlovian the way we did this thing, because 
in the beginning they were tearing open the boxes looking for 
the prize, and those prizes are, you know, mp3 players, DVDs, 
Ravens tickets, Orioles tickets, roller skating passes, 
whatever swag I could pull together to make this thing work. 
But we went from serving 8,500 breakfasts a day to 35,000 
breakfasts a day in less than 60 days. It worked, all right?
    And, you know, and our kids have been, you know, powerful 
agents of change in Baltimore, and I am not going to take much 
more time. I want to pass it over to Alison, and she has a very 
compelling story and I am glad that we are here, but I think we 
all need to keep the focus on what this is about.
    It is about them, you know? This is an amazing place. I am 
a first-generation American, and it is because of opportunity 
that we can provide with great nutrition for our kids that this 
country will continue to be great.
    Thank you.
    [The statement of Mr. Geraci follows:]

 Prepared Statement of Anthony Geraci, Director of Food and Nutrition 
                Services, Baltimore City Public Schools

    Good morning, Chairwoman McCarthy, Ranking Member Platts and 
members of the Subcommittee on Healthy Families and Communities. My 
name is Tony Geraci, and I am Director of Food and Nutrition Services 
for Baltimore City Public Schools.
    So why are we here today?
    We are here because as we speak America's youth are on a collision 
course with poor health and chronic disease, the prevalence of which 
our country has never seen before.
    According to the Centers for Disease Control and Prevention, in 
2007, 13 percent of high school students were obese and by 2006, the 
rate of obesity among 6- to 11-year-olds was at 17 percent. As a 
result, incidence of type 2 diabetes--a disease closely linked with 
obesity--is on the rise, requiring more than $174 billion worth of 
treatment each year. If current trends continue, every third child born 
in the year 2000 will develop diabetes within his or her lifetime. This 
is not what we want for our kids, but the good news is that, as a 
nation, we can fix this, and we are fixing this in Baltimore.
    In Baltimore--a city where 37 percent of public high school 
students are overweight or at risk of becoming so and 27.5 percent of 
children live below the poverty line--many of our public school 
students hated the meals our school system served.
    A small group of students, some of them in the room right now, 
insisted on something better. Inspired by the U.S. Constitution, they 
worked with their social studies teacher to draft a Cafeteria Bill of 
Rights, challenged our school board to eat what they were expected to 
eat every day and met with the head of our school system to talk about 
changes.
    Their work led to much of the following.
    We now provide fresh fruit with every lunch we serve. All over 
Baltimore, students are learning what an actual, locally grown peach 
tastes like instead of some synthesized peach flavoring. And as of this 
school year all of the peaches, lettuce, tomatoes, cucumbers--all of 
our fruits and vegetables--come from Maryland farms. We were 
intentional in getting as much of our food as possible from local 
sources because we believe that the local tax dollars that support our 
school system should circulate and multiply among those very taxpayers. 
This also means that fewer ingredients make long trips--at great cost 
to the environment and those tax dollars--over hundreds of miles.
    Due in part to those cost savings our more than 80,000 students now 
have access to fresh fruits and vegetables every school day. Last 
school year we could guarantee fresh fruit just one day per week.
    In 2008, we opened Great Kids Farm, a working organic farm and 
education center that trains future urban farmers and informed 
citizens. The site that hosts Great Kids Farm was once an abandoned 
orphanage founded by a former slave. George Freeman Bragg opened the 
Maryland home for Friendless Colored Children as a place of opportunity 
for young black men, a place where they could learn trade skills that 
would him them be self-sufficient. Over the years, it has had many 
different incarnations--a segregated school, a nature center, and, 
before Great Kids Farm, 33 abandoned acres. Filled with the spirit and 
vision of George Bragg, community members from throughout Baltimore 
felt it was important to deliver on his original promise. Our vision 
was to use the farm to connect kids to the origins of food and the 
resulting agriculture and hospitality jobs associated with it.
    Today at Great Kids Farm, children are raising bees, goats, and 
chicken; using organic farming techniques to grow tomatoes, lettuce, 
greens and mushrooms; and exploring a few dozen acres of woods, streams 
and trails. We welcome students on day-long field trips by the busload 
and train students in-depth. Our Farm to Fork Summer Internship is an 
eight-week, hands-on course, during which students learn about every 
aspect of the food supply chain from cultivation to harvesting, 
marketing, delivery, and, finally, cooking and presentation at premiere 
local restaurants.
    Long outsourced, we're quickly bringing many aspects of food 
procurement, processing and distribution back in house. Thanks to a 
$1.3 million gift from the Mid-Atlantic Dairy Association, we have a 
fleet of nine refrigerated trucks and milk coolers in all of our 
schools.
    Taking a cue from McDonald's, we introduced not a Happy Meal box 
but a Healthy Meal Box to our breakfast program: Kids rip open a 
slickly designed package containing a low-sugar cereal, 100-percent 
fruit juice, a carton of milk and a whole-grain, high-protein snack. 
They also have a chance to meet some of their professional sports 
heroes from the National Football League's Baltimore Ravens and Major 
League Baseball's Baltimore Orioles. Within two months, participation 
in our breakfast program increased four-fold.
    We're treating kids like the savvy consumers they are with ``No 
Thank You Bites,'' one-to-two-ounce servings of items we'd like to 
consider incorporating into the menu. If a student likes what she 
tries, great. If not, she simply says, ``No thank you.'' But everyone 
who works with us to expand their palettes and their minds is rewarded 
and we listen to their suggestions.
    Baltimore has done all of this with a few big ideas, under severe 
budget constraints, and with strong community support. But how can the 
federal government help make this type of work possible nation-wide?
    Congress can do so by implementing the six recommendations of the 
National Farm to School Network as it considers reauthorization of 
federal child nutrition programs.
    1. Guarantee funding for competitive, one-time grants that will 
help schools develop their own farm to cafeteria projects--menus, 
procurement, and educational and promotional materials that get local 
produce into schools.
    2. Increase the reimbursement rate for all child nutrition programs 
in line with actual costs.
    3. Apply the same high nutritional standards to all foods and 
beverages sold within schools, even those not covered by the United 
States Department of Agriculture's school meals program.
    4. Encourage purchasing of local fruits and vegetables through the 
Fresh Fruit and Vegetable Program.
    5. Incorporate language changes in existing Child Nutrition 
Reauthorization feeding programs to promote increased local food 
purchasing.
    6. Provide mandatory and consistent funding for the Team Nutrition 
Network to enable a consistent and coordinated nutrition education 
approach across child nutrition programs.
    We need to bring America's kids back to the table, to put them back 
in touch with honest-to-goodness, un-messed-around-with food; in touch 
with the earth and the resources that make real food possible; with the 
wonderful things their bodies can do in clean, open spaces; with each 
other; and with adults--their parents, grandparents, teachers and 
neighbors--because food is something that touches us all in the same 
ways.
    Thank you.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Tony.
    Well, Alice, looks like it is your turn, and Tony has just 
put a lot on your plate.

 STATEMENT OF ALICE SHEEHAN, 8TH GRADE STUDENT, CITY NEIGHBORS 
                     PUBLIC CHARTER SCHOOL

    Ms. Sheehan. Thank you.
    Hello, my name is Alice Sheehan and I am a spokesperson for 
my school's lunch committee. Thank you for inviting us here 
today, and I am delighted that I have the chance to speak up 
and help improve the school in our--the food in our school 
system.
    I have been working to solve this problem for over 3 years. 
Even before I came into the picture, however, other students 
began to bring attention to the abysmal quality of Baltimore 
City's pre-plated school lunches.
    Together, we have worked to get rid of the overcooked, 
tasteless, and just plain disgusting food in our schools. 
Coming here and telling you about our experience in Baltimore 
means we are on our way to getting nutritious and delicious 
breakfasts and lunches for all American children.
    Our story started with the endless grumbling about lunches 
at school. Tired of complaints and just ready for action, our 
student council and others together took samples of our 
prepackaged lunch down to Baltimore City School Board to 
demonstrate what it would be like to eat this every day. If 
this is what they feed us, we said, they should have to eat it 
too.
    The board turned up its nose--no thanks. But the deed was 
done. We had started acting and not just complaining.
    A year later, Mr. French, my social studies teacher, 
suggested starting a lunch committee that included Justus 
Grier, Zachary Carter, a few others, and myself. The committee 
had two goals. First, we worked out a cafeteria plan of action 
and a cafeteria bill of rights. We wrote out point by point 
what we needed for healthy and tasty lunches.
    The bill of rights included the right to a nutritious and 
delicious food for breakfast and lunch, the right to fresh 
fruit and fresh vegetables every day, the right to choose more 
than one main selection each day, and the right to give back 
feedback and have input on the quality and selections made and 
have our input be given serious consideration.
    The plan of action was to put a kitchen and cooking staff 
in each Baltimore City school, end pre-plated lunches, and 
immediately begin surveying students on how they feel about 
their cafeteria means and for the school system to use this 
information in future planning and purchasing.
    Second, we decided we had to know more, not just about our 
school but about all of the schools. So we prepared an 
experiment and invited the Baltimore Sun to observe. We made an 
expedition to sample lunches. In the end we had three: one from 
our school, which had only pre-plated and packaged food; one 
from the Hamilton Elementary School, which had its own kitchen; 
and one from a Baltimore County school, whose food came from 
outside the city district altogether.
    The difference was clear: Our food was by far the worst. 
And no surprise that the county's food was the best--their 
school system is wealthier than Baltimore City public schools. 
People with more money are getting better, tastier food, and 
the unfairness of this made us mad.
    The Sun caught on fast. They took pictures and wrote them 
up for the next week's news.
    Now, with our results in had and the press on the case, we 
went downtown to confront the now former director of food and 
nutrition at the schools. She was hopping mad about the 
article. Even so, she told us that our hands were tied and the 
city was bound by its contracts. Plus, the food you eat, she 
said, is both nutritious and delicious. We disagreed, and we 
weren't going to take no for an answer.
    So we went to the top, to Dr. Andres Alonso, the 
superintendent of the Baltimore City public schools. We gave 
him our cafeteria bill of rights and told him of our 
expectations for a better and healthier school lunch system.
    He was sympathetic with our cause and admitted how much he 
disliked the prepackaged food at his own cafeteria. He said he 
would do something about it and he did. The new director of 
food and nutrition, Dr. Geraci, has been working hard to 
improve our lunches ever since, but we think there is still 
work to be done.
    First, we need healthy food that kids will actually eat. If 
adults won't eat it, then why should kids? Everybody deserves 
to have fresh, tasty, and yummy food.
    If possible, why not make it local food? Why buy apples 
from Washington State when you can get them right here in 
Maryland at a cheaper price? We should think about our meals 
not as nutritional packages but as food that people like and 
want to eat, with fresh ingredients and tasting like it should.
    Second, our experiment showed that at the present, school 
districts with the most underserved kids get the worst food. 
This is unfair. The same kids who are already struggling to eat 
good meals at home are getting inferior meals at school.
    All kids need to eat well, if they live in Baltimore City 
or Baltimore County. The city of Baltimore may always be poorer 
than the county, but the city could spend its money better on 
healthier and tastier foods rather than on expensive 
prepackaged junk.
    Third, waste: Right now, if you go to our cafeteria you 
find in the trash can at least half the lunches are uneaten and 
thrown away. What is eaten is the fresh fruit, the sweets, and 
the bread. Not a good lunch nor a good use of the school's 
money.
    If people get free or reduced-cost lunch and just throw it 
way it is just like throwing money right down the drain. Lunch 
is more often an experiment--how hard are those mashed 
potatoes? Did the meatloaf just move? None of this helps kids 
at all.
    The point is, we need to serve healthy food that kids will 
eat. Why not ask kids to help plan the menus? Why not design 
lunches with kids so that they eat their food every day?
    I am a kid who does not buy lunch all the time, and I am 
lucky to have another option. But most kids can't bring their 
lunch, or if they do it is either small or not very good for 
them. On days I do buy lunch and eat it all--not very common--I 
am usually still hungry afterwards.
    In my experience, then, school lunches are neither 
delicious nor nutritious, and not even very filling. We can do 
better and we should, and with the help of Congress we will. 
Thank you for listening to me on behalf of the children of the 
United States. Thank you.
    [The statement of Ms. Sheehan follows:]

Prepared Statement of Alice Sheehan, 8th Grade Student, Baltimore City 
                             Public Schools

    Hello, My name is Alice Sheehan and I am the spokesperson for my 
school's lunch committee. Thank you for inviting us here today. I am 
delighted that I have the chance to speak up and help improve the food 
in our school systems. I have been working to solve this problem for 
over 3 years. Even before I came into the picture, other students began 
to bring attention to the abysmal quality of Baltimore City's pre-
plated, school lunches. Together we have worked to get rid of the 
overcooked, tasteless, and just plain disgusting food in our schools. 
Coming here and telling you about our experience in Baltimore means 
that we are on our way to guaranteeing nutritious and delicious 
breakfasts and lunches for all American children.
    Our story started with the endless grumbling about lunches at 
school. Tired of the complaints and ready for action, our student 
council and others together took samples of our prepackaged lunch down 
to the Baltimore City School Board to demonstrate what it would be like 
to eat this every day. If that is what they feed us, we said, they 
should have to eat it too. The Board turned up its nose: no thanks! But 
the deed was done: we had started acting and not just complaining.
    A year later, Mr. French, my Social Studies teacher, suggested 
starting a lunch committee that included Justus Grier, Zachary Carter, 
a few others, and myself. The committee had two goals. First, we worked 
out a Cafeteria Plan of Action and a Cafeteria Bill of Rights. We wrote 
out point by point what we needed for tasty and healthy lunches. The 
Bill of Rights included:
    <bullet> The right to nutritious and delicious food for breakfast 
and lunch
    <bullet> The right to fresh fruit and fresh vegetables each day
    <bullet> The right to choose-more than one main selection each day
    <bullet> The right to give feedback and have input on the quality 
and selections made and have our input be given serious consideration
    The Plan of Action was to put a kitchen and cooking staff in each 
Baltimore City School, end pre-plated lunches, to immediately begin 
surveying students on how they feel about their cafeteria meals and for 
the school system use this information in future planning and 
purchasing
    Second, we decided that we had to know more, not just about our 
school, but ALL the schools. So we prepared an experiment, and we 
invited the Baltimore Sun to observe. We made an expedition to sample 
lunches. In the end, we had three: one from our school, which had only 
pre-plated and packaged food; one from the Hamilton public school, 
which had its own kitchen; and one from a Baltimore county school, 
whose food came from outside the city district altogether. The 
difference was clear: our food was by far the worst. And no surprise 
that the County's food was the best: their school system is wealthier 
than the Baltimore City's Public Schools. People with more money are 
getting better, tastier food, and the unfairness of this made us mad. 
The Sun caught on fast: they took pictures and wrote them up for the 
next week's news.
    With our results in hand, and the press on the case, we went 
downtown to confront the (now former) director of food and nutrition at 
the schools. She was hopping mad about the article. Even so, she told 
us that her hands were tied and that the city was bound by its 
contracts. Plus, the food you eat, she said, is both nutritious AND 
delicious.
    We disagreed. And we weren't going to take no for an answer.
    So we went to the top, to Dr. Andres Alonso, the Superintendent of 
the Baltimore City Public Schools. And we gave him our Cafeteria Bill 
of Rights, and told him of our expectations for a better and healthier 
school lunch system. He was sympathetic with our cause, and admitted 
how much he disliked the pre-packaged food at his own cafeteria. He 
said he would do something about it. And he did. The NEW director of 
food and nutrition Dr. Geraci has been working hard to improve our 
lunches ever since.
    But we think there is still work to be done. First, we need healthy 
food that kids actually will eat! If adults won't eat it, then why 
should kids? Everybody deserves to have fresh, tasty and yummy food. If 
possible, why not make it local food? Why buy apples from Washington 
State when you can get them right here in Maryland at a cheaper price? 
We should think about our meals not as nutritional packages, but as 
food that people like and want to eat, with fresh ingredients and 
tasting like it should.
    Second, our experiment showed that, at the present, school 
districts with the most underserved kids get the worst food. This is 
unfair. The same kids who already are struggling to eat good meals at 
home, are getting inferior meals at school. ALL kids need to eat well, 
if they live in Baltimore City or in Baltimore County. The city of 
Baltimore may always be poorer than the county, but the city could 
spend its money better, on healthier and tastier foods, rather than on 
expensive prepackaged junk.
    Third, waste. Right now, if you go to our cafeteria, you find in 
the trash can, at least half of the lunches are uneaten and thrown 
away. What is eaten, is the fresh fruit, the sweets, and the bread. Not 
a good lunch. Nor a good use of the school's money! If people get free 
or reduced-cost lunch and just throw it away, it is just like throwing 
money right down the drain. Lunch is more often an experiment--how hard 
are those mashed potatoes? Did the meatloaf just move? None of this 
helps kids at all. The point is, that we need to serve healthy food 
that kids will eat. Why not ask kids to help plan the menus? Why not 
design lunches with kids, so that they eat their food every day?
    I am a kid who does not buy lunch all that often, and I am lucky to 
have another option. But most kids can't bring their lunch, or if they 
do it is either small or not very good for them. On days when I do buy 
lunch and eat it all (not very common!) I am usually still hungry 
afterwards. In my experience, then, school lunches are neither 
delicious nor nutritious, and not even very filling. We can do better. 
And we should. And with the help of the Congress, we will. Thank you 
for listening to me on behalf of the children of the United States.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    I want to thank everybody. The testimony obviously shows 
that everyone in front of us cares a great deal about our 
children and the future of this nation. We need to bring the 
context of food--healthy food for our children because they are 
our future, and if we don't take care of the children now, 
where are we going to be 20, 30 years from now? And that is 
what hopefully this committee will be able to make a big 
difference in the children's lives.
    Alice, I want to thank you for taking that up, and 
certainly, Tony, for you listening to them due to their 
persistence. And having, you know--one of the things that we 
didn't really talk about a lot, which I hopefully get into down 
the road on another hearing, is how important physical 
education is with the food. One can't go with the other, or it 
shouldn't be without the other. Our children are not getting 
the exercise that they need.
    So my question to be, especially since I know that we are 
going to be starting a program at the Westbury schools, and 
Tony, you have already designed the boxes, and Alice, hopefully 
did you have any input into the boxes? So I would like to ask 
all of you on the grab-and-go lunches that are going to be out 
there, and what makes the decisions on what goes into those 
boxes? And Alice, I guess you would be the person that would 
say how does it taste.
    So I will start with Mary.
    Ms. Lagnado. The pilot program we started was prepackaged 
from a vendor that we purchased it, but in looking over the 
shelf life was not feasible for us to keep--it didn't keep, and 
the taste was not there. So we have decided that we will do our 
own. So moving forward, we are going to box our own or bag it, 
and we will cook the food in our cafeterias and we will design 
it based on what we have said we want to do: nutritious and 
healthy food choices.
    And we will go back to the committee and to the students 
and get their feedback. Like any other vendor would, you have 
to get your customer feedback, and that will determine. But we 
want to do our own because we have our own food service program 
and our own employees, which makes it feasible for us to be 
able to control what we do.
    Chairwoman McCarthy. Which is great. It reminds me--you go 
to a restaurant. If the food is terrible you don't go back or 
you send it back----
    Ms. Lagnado. Right----
    Chairwoman McCarthy. And that is what Alice has done with 
herself and her friends.
    Tony, tell me a little bit more about the packages that 
came up. We heard about the, you know, the----
    Mr. Geraci. We used the National School Lunch guidelines 
for content, so we followed all of the USDA regs to make sure 
that we had all of the, you know, appropriate nutrient content 
when we created the boxes.
    In our kitchens that we can cook in we cook and serve hot 
meals. Many of our schools in Baltimore City don't have 
kitchens because they have been gutted over the years, and we 
are in the process of trying to build a central kitchen 
operation where we bring in, like, all of our local fresh 
fruits and vegetables.
    Baltimore City now only purchases its fruits and vegetables 
from Maryland farmers. We put out an RFP last year calling for 
only Maryland-grown products to be purchased by--it doesn't 
make sense to buy peaches packed in a can of corn syrup that 
traveled 2,200 miles to get to you for 14 cents a portion when 
I can buy a Maryland peach for 8 cents, you know?
    So what we would ask is that the government give us an 
opportunity to be better stewards of the money that we get so 
we can do more local purchasing so we can build better 
programs.
    Chairwoman McCarthy. That is the question I wanted to ask 
you: With the regulations that have come here with programs 
that you are all trying to do into your schools, maybe we 
should even look at, you know, how do we give more flexibility 
to all of you so that you can be able to give these lunches 
that--and breakfasts they need?
    Alice, I just want to hear your input as far as your 
committee of your friends and colleagues in school. How do you 
come up to the point of where you consider something good to 
eat?
    Ms. Sheehan. Many times our school has both the breakfast 
boxes and the hot lunch, as we do not have a kitchen that 
works. Most people get the hot lunch or they get both, and 
sometimes that is what they need to get through till lunch.
    The boxes are usually very good. They fill you up and hold 
you over and keep you calm, I guess, till lunch time comes.
    Chairwoman McCarthy. One of the things that--my time is 
almost up--that you had brought up, Alice, was also that 
underserved schools unfortunately have probably the worst menus 
going.
    Ms. Sheehan. Yes.
    Chairwoman McCarthy. We have found that to be extremely 
true. One of the things a lot of people don't know, those that 
are getting the free breakfasts and lunches--those schools--
they don't have students that are actually able to pay. So the 
schools that have more, maybe, middle-or upper-income families, 
you know, half the students are helping to support to have 
breakfasts and lunches to the students. That is unfair.
    You know, as far as I am concerned, if we are going to make 
children healthier we should actually really look a little bit 
deeper on how we make sure all of our children get the right 
nutrition.
    With that, Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    Again, my thanks to each of you for your testimony, and 
great cross-section of witnesses.
    Ms. Yargar-Reed, I wanted to start with you. In your 
testimony you talked about the various different programs, and 
one that caught my attention was the family fitness program. As 
one who very much believes in--for long-term success and 
permanent success it really needs to be a family buy-in and not 
just what the child eats at school, but then how that 
translates to at home.
    I am drinking my water today because 5 years ago there 
would have been a Mountain Dew sitting here, and sitting at the 
dinner table my then 5-year-old--I drank about a case of soda a 
week, and I commute from my district and use that as my excuse 
to have the caffeine--and sitting at the dinner table one 
night, my 5-year-old saw my glass of soda, and they get sweets 
but to this day they don't get soda, at now 10 and 13, and my 
5-year-old said, ``Well, Daddy, if it is so bad for me why do 
you drink so much of it?'' Needless to say, I don't drink soda 
anymore.
    And so that buy-in is so important and it sounds like that 
is part of your program is that family engagement, and that 
being one example. So could you expand on how that works and 
the success, you know, how it is going?
    Ms. Yargar-Reed. Certainly. The activities that we do in 
school are just for the students, and hopefully I would like 
them to carry it over to their home life, but I don't know that 
to be truly happening. But if I actually invite the families to 
come in and do activities along with their children--a physical 
activity--then I know by the number of people that are coming 
and actually coming back and getting a higher attendance at my 
monthly events, then I know that more people are buying into it 
and then actually, hopefully, making the healthier choices at 
home.
    So it is an event that takes place once a month and I 
encourage any of the students that are in the school to come 
along with their parents. And it is an hour program, and within 
the hour we do some type of physical activity.
    I have a theme for each different evening program. For 
example, when the weather is warmer we are outside. We did disc 
golf, and we have also done basketball activities. I set up 
different stations around in the gymnasium and they rotate 
amongst the various stations.
    We have done volleyball activities, volleyball games. We do 
just simple movement and tag games. The school that I teach at 
is a kindergarten through third grade building, so any of the 
students are encouraged to come, and a lot of times they have 
older siblings that might be in another elementary in our 
district, which is a four through six building, so it is neat 
to see the older siblings actually coming along with the 
younger siblings and the parents to the evening activities.
    The number of people that normally come out on a monthly 
basis are somewhere between 30 to 60, so I feel that--and it 
seems like it is growing. So----
    Mr. Platts. I guess the engagement with the family in 
addition to the fitness night, in the sense of the meals 
themselves, is there parent participation in the wellness--in 
the committee and kind of what you do as far as your policies?
    Ms. Yargar-Reed. Yes, there are. Actually, on the committee 
we do have parents, as many as can come. Because our meetings 
are during the school day, so some of them might be a working 
parent but they are always free to send e-mails of any 
comments, concerns, any feedback that they would like to be 
brought up to the committee. But we do have parent involvement 
on our advisory board for that, yes.
    Mr. Platts. Great. Thank you.
    Mr. De Burgh, one of the things that caught my attention 
with your testimony was the breadth of the type of schools--I 
think you said 37,000, maybe, and then 21. How does it work 
with especially the small schools--my district is mainly 
suburban and rural--in your smaller districts and how they 
participate? And I guess if you can walk me through how a 
school participates through the co-op and how that would be 
different than if they were in a more traditional sense 
purchasing their food service?
    Mr. De Burgh. Every school district, regardless of size, 
they get about 20 percent of their food money from the 
commodity program, but they buy the other 80 percent from 
somebody. So the key is, how can I get the somebody to deliver 
the 20 percent, because it is extra money to that person, and 
it makes it seamless to the school district.
    We do all of the contractual obligations for meeting all 
the federal and state law on purchasing. Because we are so big 
the manufacturer says, ``I don't need an estimate of 20,000 
cases because I know you are already going to buy 200,000 
cases.'' So a small school district gets to piggyback on the 
fact that there is a--you know, we are three times the size of 
L.A. Unified, and everybody says, ``Well, L.A. Unified,'' you 
know, it is a question of volume making the small school 
district functional and then having that function follow the 
commercial outline so that it is seamless.
    Whoever they get their normal food from, the commodity food 
not only comes from them but comes from the same format. You 
don't have a different chicken nugget; you don't have a 
different sliced apple. It is the same stuff.
    Mr. Platts. How big a region--geographic region--are your 
schools?
    Mr. De Burgh. All the state of California, all the state of 
Michigan, all the state of Ohio.
    Mr. Platts. Okay. So it is not just the West? You are 
great----
    Mr. De Burgh. And one of the things Alice said was more 
than one choice. That is the key to our program.
    A school district that doesn't offer choice, that is the 
only place the child ever goes, they don't get a choice. You 
can't get a Happy Meal unless you answer seven questions. You 
can't, okay?
    So there are some kids that don't like pepperoni pizza. You 
have got to offer a choice so that there is a meal that every 
child wants to eat. And I am serious, the kids should ask to 
eat at school when they are asked where they want to go.
    Mr. Platts. Yes. Well, and your comment about children, if 
you give them an apple, how they respond versus sliced apple. 
Having participated in the Great Apple Crunch Program in my 
district where I go in and serve in the cafeteria and see the 
packaged, sliced apples being devoured, but if you sat the 
apple out there whole not nearly as many take it.
    Mr. De Burgh. Using the commodity program, we delivered 
sliced apples at a cheaper price than the district could buy 
whole apples. That is how good it is.
    Mr. Platts. Yes. Great. Thank you.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you.
    Ms. Chu?
    Ms. Chu. Mr. Sharp, I was so happy to hear of the success 
of California's direct certification program, this 37 percent 
increase in student enrollment in the school lunch program 
based on having an automatic entry into the school lunch 
program based on the food stamp SNAP and TANF records.
    Since California has already gone through this direct 
certification process, can you tell us more about how long the 
process took, how much did it cost, how much money a school 
district and the State Education Department would need to 
implement these practices? Or did it save money? Did it save 
administrative costs?
    You also said that California made improvements over time, 
and I know this has been a 4-year process thus far, so can you 
expand on all that?
    Mr. Sharp. Thanks, Congresswoman Chu, for the question. I 
will try and be brief and succinct and can provide further 
information in writing in follow-up.
    After Congress passed the law establishing an expectation 
for increased direct certification in 2004 we offered a state 
law in 2005--or sponsored a state law--to require the state to 
develop the database which was built with about $200,000 in 
federal funds that were used to create a match, a computer 
patch, in effect, in between the food stamp database and the 
Department of Education database. It costs very little to 
operation on an ongoing basis because technology is so 
sophisticated today.
    The savings and the benefits are really along this side of 
the table. At school sites where there is not an obligation 
anymore to process those applications, to handle the paper 
tickets, and to do all the administrative work, that money can 
be plowed into better nutrition.
    So the up front costs were very minimal, paid for by a 
small federal grant which, I should point out, you all have 
expanded in the Conference Agreement of this year's USDA budget 
for 2010, you have proposed to put in $22 million in grants to 
other states to make these systems the minimum so that these 
innovations you are hearing today become the national model.
    Ms. Chu. And then you also said that California's 
performance improved over time?
    Mr. Sharp. The accuracy of this process depends on a number 
of variables. There are Jose Louis Fernandez Martinez, Jose 
Louis Fernandez Rivera. There are lots of variations on the 
names, and the ability of the software to more precisely put 
that together and get the right student certified for free 
meals has been an ongoing process and we expect improvements.
    But the big leap forward will occur when you all permit 
California and the rest of the nation to use the data that is 
in the Medicaid database, where, I proposed earlier, there are 
another 1.3 million California students' names ready to be put 
into free school meals without the red tape.
    Ms. Chu. In fact, I wanted to ask about that. Currently, 
federal law does not allow us to use Medicaid and S-CHIP data 
so it would require a change in the law, of course. But would 
we be able to get these data systems to work well together? And 
also, about the databases that are now being developed for No 
Child Left Behind, would that be a possibility?
    Mr. Sharp. Yes. In California the food stamp and Medicaid 
databases are housed within the same computer mainframe system, 
and so the matching process will be reasonably painless. I 
can't speak for the other jurisdictions and their databases, 
but by and large that is a trend in social services, is 
integrating the database functions to save money in a time of 
fiscal crisis. So the intermediate step to do that involves a 
change in federal law more than it involves any other change at 
a state of federal level, in terms of the technology.
    But regarding, you know, the outcome of this and what is 
needed to make it happen, you do need to direct USDA to work 
with the Department of Education at a federal level to figure 
out if some of this stuff could occur nationally, at a simple, 
automatic level, and if the right technical assistance could be 
provided to the state so they could learn from the experience 
of California and other innovators in this area. Within the 
existing system, there is a wide range of success rates. Some 
states are below 60 percent, some states are at 100. And so you 
all ought to take those innovations and establish them as the 
minimum for----
    Chairwoman McCarthy. Thank you, Ms. Chu.
    We have been notified that there is going to be a vote 
coming up and there will be five votes, which means that we 
will probably be down there for a good hour. So what I am going 
to do is, instead of having 5 minutes there will be 3 minutes 
so hopefully the rest of our colleagues can get a chance to ask 
a question.
    We don't like to hang you all up here for an hour while we 
are down there voting.
    So, Mr. Thompson?
    Mr. Thompson. Thank you, Madam Chairwoman.
    And as a former school board member, I appreciate the 
innovations of the programs I am hearing about, and frankly, 
the importance of nutrition, the lessons of that.
    And first question, Ms. Lagnado, the--congratulations on 
your program and the nutrition that you are delivering. And I 
wanted to kind of take it that next step, taking it home. Very 
impressed with the concept that you can work this out for the 
parents, that is just so important. And I think that is the end 
game, where for the future, that we really need to emphasize.
    So I was curious--any reflection--does your learning 
curriculum at any point within the school district address 
responsible parenting and preparing students for future roles 
as parents, emphasizing the--you know, assuring that, you know, 
parents are prepared--those future parents are prepared in 
terms of providing--meeting the nutritional needs of their 
children, then reinforcing the importance of breakfast, that 
type of thing?
    Ms. Lagnado. Well, at the lower grades what we hope is that 
educating them on healthy choices will follow through when they 
become parents. We know, because of the population we serve, 
that we only control the school day. What happens away from 
home is another story.
    So our hope is that as we introduce certain vegetables and 
fruits and broccolis, when they go with their parents either to 
the bodegas or the supermarkets, they will ask their parents to 
buy those vegetables. We have workshops not only--we have 
multiple workshops for our parents. We have them in multi-
language translators, and during the school day with our 
physical education department and our nurses we have immense 
curriculum education on healthy eating and what it means to 
have good meals and good choices.
    So on both levels not only are we educating the child, but 
we also focus, through our PTAs and through our parent 
workshops and staff development, we educate--we concentrate on 
educating the parents as well to what is good eating and what 
they should be looking for as far as healthy choices.
    Mr. Thompson. Thank you.
    Mr. Geraci----
    Chairwoman McCarthy. You know, I am sorry. That was 
actually 3 minutes.
    Mr. Thompson. Okay. I am just watching the lights.
    Chairwoman McCarthy. We can't--the timers we have only have 
5; you can't bring it down to 3. So we are watching it.
    Mr. Tonko?
    Mr. Tonko. Thank you, Madam Chair.
    The panelists are great to be here and offer all this 
information. And Alice, thank you for providing a student's 
perspective.
    Let me ask this question: Other than a richer reimbursement 
for the food supplies that are necessary for the program, if 
there were grant concepts developed, what would be the most 
creative use of those grant dollars? What is not being done or 
what is being done now that could be done better to achieve the 
kind of results that you would like? If you had those added 
dollars, what would you do?
    Mr. Geraci. If we had access to those grant dollars we 
would reinvest in our infrastructure so that we could start 
cooking our meals again, you know, on site. As an example, in 
Maryland, look, there are more chickens than people in that 
state. But, like my colleague said, I am buying chickens from 
Arkansas.
    So to me it makes sense to build a central kitchen 
operation in the city that I live that then could provide 
additional jobs, green jobs, vocational training in the 
culinary arts to prepare the food to feed our kids.
    Mr. Tonko. Anthony, does that exist--is that a need that 
exists primarily for urban cores, do you think, or is that 
across the----
    Mr. Geraci. No, across the country, I think. You know, any 
time that you have, like, a strong infrastructure in place you 
lower your costs. I mean, if I am paying a processor, you know, 
$2 million or $3 million a year out of my budget to turn 
chicken into nuggets when I could turn chicken into roasted 
chicken in pesto--makes a little more sense, you know?
    Mr. Tonko. Anyone else, in that regard?
    Mr. Sharp. Well, just regarding the facilities gap, it is 
estimated that in Los Angeles alone there is $600 million of 
unfunded facilities needs--everything from hand-washing sinks 
to actual chairs so that all 3,000 students at an overcrowded 
high school can eat. The backlog is tremendous. In the 
Conference Agreement for USDA's 2010 budget you all have made a 
small down payment towards that unfunded problem.
    Mr. Tonko. Anyone else? Okay----
    Mr. De Burgh. You need not only to provide chicken in pesto 
sauce, but you also need to provide the chicken nuggets. You 
need to provide what the child wants and make it healthy. Hide 
the non-fried chicken nugget in whole wheat batter. Pavel has 
got a pizza that is 30 percent calories from fat and less than 
10 percent calories from saturated fat, whole wheat bread; 
people eat it.
    So the key to me is, children are sophisticated, and 
provide healthy meals that are also attractive. If you just 
provide healthy meals that aren't attractive, as you said, they 
are just going to wind up in the trash can.
    Mr. Tonko. Okay.
    Then, if I have a little time left--I don't know if I do--
--
    Chairwoman McCarthy. Fourteen seconds. [Laughter.]
    Mr. Tonko. It was nice hearing from all of you.
    Chairwoman McCarthy. I just want to say at this particular 
point that in the appropriations there will be $25 million to 
help purchase equipment to store, prepare, and serve healthy 
food, so that should help out a little bit.
    Mr. Roe?
    Mr. Roe. Thanks very much.
    Very quickly, and Ms. Reed, our data reflected yours, and I 
am from a rural area in Tennessee, on the children who 49 
percent were at risk for obesity or obese, 1 percent 
underweight, and it was almost identical to what your data was. 
And we started about 5 or 6 years ago an Up and At 'Em program 
with nutrition and exercise, and without the exercise you are 
not going to make it. And you have to have both.
    We have a Turkey Trot every Thanksgiving. I thought about 
100 people would show up; 1,200 showed up the first year, 2,000 
the next year. For the school that shows up with the most kids 
they get $1,000 to put into their school.
    So we have done some innovative things there, and just to 
give you an idea, of 150-calorie cola that you drink, so that 
Congressman Platts was talking about, if you do exactly the 
same activity in 1 year you will gain about 12 pounds just with 
that 150 extra calories a day.
    And also to tell you how important it is to teach these 
young people how to be healthy to begin with. Korean War 
veterans were autopsied, and these were young men that were 
killed during the Korean War, and they already had a 
significant amount of coronary artery disease. So you need to 
start that at a very young age to prevent these kinds of 
problems happening.
    And just a statement, Alice, I am a doctor, and we would 
have these drug detail guys come by and bring a fiber biscuit. 
And I would take it home and give it to my beagle dog, and if 
he wouldn't eat it, I wouldn't prescribe it to my patients. So 
I understand where you are coming from: If you can't stomach 
the food you are not going to eat it.
    And the sad part is, 6 months ago I had been in 
Afghanistan, and 16 million people in that country live on $1 a 
day. They would love to have what we throw out. So we need not 
to do that.
    I think the other point that I want to commend you all on 
is purchasing local. I think that is--we are encouraging people 
around the country to do that. I think that is a tremendous 
thing to do. And I will stop and let you have any comments. 
That is just some statements that I had very quickly.
    Thank you.
    Chairwoman McCarthy. You left them speechless.
    Mr. Polis?
    Mr. Polis. Thank you, Madam Chair.
    First, thank you again, all, for your commitment in being 
here today. My question is for Deborah Yargar-Reed and Mary 
Lagnado, with regard to wellness policies.
    Your districts have developed and implemented very 
successful wellness policies that have led to significant 
changes in the school environment by promoting healthier 
choices, physical activity, and nutrition education.
    However, a recent report by the Robert Wood Johnson 
Foundation found that the quality of such policies--and I have 
some experience from Colorado where we worked on requiring 
wellness policies in the districts--but what we found and what 
this study bore out is that there is really a wide disparity of 
the quality of the policies. Many are undeveloped and 
fragmented, others are well-intended on paper but lack adequate 
implementation and monitoring.
    The Robert Wood Johnson report also found that many 
policies are weak overall. For example, half of them didn't 
even have goals for nutrition education; 70 percent did not 
require nutritional information for school meals; three out of 
four neither restricted the marketing of unhealthy foods and 
beverages nor promoted healthy foods and beverages.
    So my question is, can you share with us your experience on 
these, and how we can help districts strengthen and improve 
their local wellness policies and ensure their implementation 
and evaluation are a high priority?
    Ms. Lagnado. Well, I would like to say that the wellness 
policy is an ongoing entity. We look at it with the nutrition 
committee on a regular basis to see how it can be improved and 
whether we are adhering to it, which is very hard to control 
when sometimes you have fundraisers that include foods that are 
not permissible, and that was a challenge with the policy in 
our school district--it was educating everyone in the school 
community that certain things were not allowed with the policy.
    What we did is try to--the first year, the first time that 
it was enacted, we actually made it as flexible as we could so 
that we could educate everyone on it and what would be needed. 
We recently had an audit from the State Comptrollers Office in 
the state of New York, and they were very pleased with our in-
depth policy and what we had done because we have made 
significant changes.
    And one of the most significant changes, I think, that we 
have made and we are very proud as a result of the policy, is 
that we have birthday of the month, where our food cafeterias 
actually cook--make the cupcakes, once a month, for each school 
to celebrate the birthdays, and they are made with whole wheat 
flour. What this has done is, on the early grade levels the 
elementary principals are ecstatically happy because for now, 
it takes less instructional time to celebrate a birthday that 
took 2 hours, now it is done in the cafeteria once a month. And 
also, we are controlling what the child eats.
    And this came as a result of the wellness policy. So again, 
we are very pleased that this came into being, and we are 
looking at ongoing to refine it.
    Mr. Polis. Thank you.
    I yield back.
    Chairwoman McCarthy. Thank you.
    I am so glad you brought up about the cupcakes, because--
no, in some newspapers, you know, they are advertising that 
schools are now saying to the parents, ``You can't bring in 
cupcakes or cookies, and whatever.'' There is a slight uproar, 
but it is actually educating their parents.
    I want to say, I have a closing statement, but because we 
have only about 2 minutes to get down to vote, I want to thank 
everybody. This is very, very informative of all the 
information that you have given us to hear what is going on, 
the innovative programs, seeing what we can do to have it a 
little bit more flexible so you can do the best that you can. 
And hopefully we are on to a good start on giving good 
nutrition to all our children in this country.
    And I thank all of you.
    And Alice, I thank you for coming down here and starting 
something in your school, because as we said, this is all about 
the children--totally about the children.
    So with that, I will----
    Mr. Platts. Madam Chair, if I could just add----
    Chairwoman McCarthy. Absolutely.
    Mr. Platts [continuing]. My words of thanks. We do a lot of 
hearings. Some are more productive or informative than others, 
and each of you have been extremely informative and has, I 
guess I would say, given a lot of food for thought, and, you 
know, we will take to heart your suggestions and experiences 
you have.
    And Madam Chair, thanks for your holding this very 
important hearing, because as you said, it is about doing right 
for our nation's children. Thank you.
    Chairwoman McCarthy. And I thank my ranking member for 
working with us.
    I want to mention that there has been a great deal of 
interest in this hearing and we have received many requests to 
submit written testimony from other organizations, so I will 
have, from the New York State Nutrition Consortium, that I 
would like to submit for the record. Without objection, so 
ordered.
    [The information follows:]

    Prepared Statement of the Nutrition Consortium of New York State

    The Nutrition Consortium of NYS is a statewide, non-profit, anti-
hunger organization dedicated to alleviating hunger in New York State 
through increasing access to and participation in the federal nutrition 
assistance programs. The three programs we primarily focus on are the 
Food Stamp Program (FSP), Summer Food Service Program (SFSP), and 
School Breakfast Program (SBP). We commend the House Subcommittee for 
Healthy Families and Communities, under the leadership of Chairwoman 
Congresswoman Carolyn McCarthy, for holding this hearing on innovative 
strategies to ensure children have access to school meals.
    To improve the educational achievement and health of children 
across NYS and the rest of the country, and to help achieve President 
Obama's commitment to ending childhood hunger by 2015, it is imperative 
that the upcoming Child Nutrition and WIC Reauthorization Act provide 
grant funding for high-need schools to implement universal (served to 
all students at no-charge) breakfast programs that incorporate in-
classroom breakfast or other alternative service methods.
    Throughout NYS, almost 90% of low-income children who qualify to 
eat free or reduced-price school meals eat school lunch through the 
National School Lunch Program (NSLP). Unfortunately in NYS, 
participation in the SBP is much lower than in the NSLP. Only 37% of 
low-income children eating school lunch are also eating school 
breakfast. In Nassau County, only 29% of low-income children eating 
school lunch are also eating school breakfast.
    Why is this? Research proves that students do not eat school 
breakfast due to persistent ``access barriers'' which prevent them from 
participating. Short breakfast periods, buses that arrive to school 
late, pressure to get to class on time, lack of awareness, and stigma 
all discourage children from eating school breakfast. These barriers 
are all associated with the traditional model of serving breakfast in 
the cafeteria before the school day begins.
    With breakfast in the classroom, and other alternative breakfast 
service models, schools move breakfast out of the cafeteria and 
incorporate the meal as part of the school day, making it easily 
available to all students. However, despite the tremendous success of 
universal in-classroom breakfast programs, only a small number of 
schools utilize these methods. Based on 8+ years of working to convince 
schools to adopt in-classroom and other alternative service methods, 
the Nutrition Consortium of NYS found that the most effective way to 
get schools to do so is by offering start-up funding.
    Many school food service directors are interested in switching from 
the traditional cafeteria model to innovative school breakfast service 
methods, but lack support from school administrators, teachers, and 
custodial staff to implement this change. The Nutrition Consortium of 
NYS found that offering a small amount of start-up funding ($5,000-
$10,000) is sufficient to garner the support of school administrators 
for implementing a classroom breakfast program, and allows the schools 
to pay for start-up costs such as equipment and labor.
    During the 2003-2004 school year, the Nutrition Consortium of NYS 
administered the Academics and Breakfast Connection (ABC) Pilot, which 
provided grant funding for 20 upstate schools to start universal 
breakfast in the classroom programs. Westbury School District in 
Congresswoman McCarthy's district in Nassau County, one of the featured 
speakers at today's hearing, was part of this pilot. Funding for the 
Academics and Breakfast Connection Pilot was secured by the Nutrition 
Consortium of NYS from the Indirect Vitamins Purchasers Antitrust 
Litigation Settlement administered by the New York State Attorney 
General. Urban, suburban, and rural schools of varying sizes and socio-
economic characteristics received grant money to implement breakfast in 
the classroom. As part of project, schools reported SBP participation 
rates and various physical, social, and academic indicators before and 
after the pilot was implemented. The Harvard Medical School analyzed 
results and the Nutrition Consortium of NYS published these 
tremendously positive findings in a report entitled, ``Academics and 
Breakfast Connection Pilot''.
    In all pilot schools, SBP participation more than doubled. 
Participation from low-income students increased from 34% to 58% (as 
compared to the school year prior to implementation). There were also 
notable differences in other indicators: tardiness and absenteeism 
decreased; disciplinary office referrals decreased; and visits to the 
school nurse decreased. An overwhelming majority of school principals 
and teachers surveyed agreed that classroom breakfast made an important 
contribution to the educational process.
    In addition, school faculty perceptions about breakfast in the 
classroom changed. Faculty and staff were initially concerned about the 
time and clean-up involved with classroom breakfast. Before the pilot 
began, 58% of teachers reported they were hesitant about the program. 
By the end of the school year, 85% of the teachers surveyed felt that 
classroom breakfast made a positive impact in the classroom. Similarly, 
50% of custodial staff members were initially reluctant to switch to 
classroom breakfast, but by the end of the school year, 77% supported 
the program.
    Due to the tremendous success of the ABC Pilot, in 2007 the 
Attorney General used some of its remaining money from the initial 
settlement to award the Nutrition Consortium of NYS additional funding 
for universal classroom breakfast start-up grants. The Nutrition 
Consortium of NYS received more than 100 letters of intent for the 
start-up grants, which were for amounts of up to $5,000 per school. 
More than 30 completed applications were submitted, but due to limited 
money available, the Nutrition Consortium of NYS awarded funds to nine 
schools.
    At the present time, there is no funding available for schools in 
NYS to start universal classroom breakfast programs. The Nutrition 
Consortium of NYS believes that the Child Nutrition and WIC 
Reauthorization Act should include funding for this purpose, since 
there is a documented interest and a record of success. If funding was 
available for universal classroom breakfast start-up grants, there 
would be many schools across NYS that would apply and switch to this 
style of breakfast service. Start-up grants would thereby increase the 
number of low-income children participating in the SBP, improve 
educational and health outcomes in school children, and reduce the 
prevalence of childhood hunger.
    The benefits of children receiving morning nutrition through the 
SBP are well-documented. In November 2008, the Sodexho Foundation 
summarized recent peer-reviewed and/or scientific literature published 
in refereed journals about the benefits of school breakfast. The 
Sodexho report categorized the benefits of the SBP into three major 
areas: cognitive and academic benefits; health benefits; and behavioral 
and psychosocial benefits.
    According to the report, in terms of cognitive and academic 
benefits, school breakfast participation resulted in improved 
concentration, alertness, and energy in children. The SBP was also 
associated with improved overall academic performance including higher 
math, reading, and standardized test scores. In regard to health 
benefits, school breakfast elicited better overall diet and eating 
habits, improved nutritional status, and reduced illness in children. 
In addition, children who ate school breakfast displayed improved 
psychosocial wellbeing, better disciplinary and social behavior, as 
well as reduced aggression and incidence of school suspension.
    School breakfast participation not only promotes positive 
indicators in child well-being and contributes to a more positive 
school environment, but it also helps parents and adult caregivers. 
Especially in these economic times, breakfast at school provides 
parents/adult caregivers an affordable option for feeding their 
children in the morning. With busy morning schedules, parents/adult 
caregivers working non-traditional hours, and children not being hungry 
early in the morning, school breakfast is an opportunity for children 
to get morning nutrition.
    In addition, the SBP has significant financial implications for 
school districts in NYS and Nassau County. Since a majority of the SBP 
is federally-funded, each school breakfast served draws down federal 
funding. Ultimately, the more children who eat breakfast at school, the 
more federal dollars enter NYS. According to projections from the 
Nutrition Consortium of NYS, if 60% of NYS' low-income children eating 
school lunch also ate school breakfast rather than the current 37%, NYS 
would receive an additional $53.4 million in federal funding each 
school year. Further, if 60% of Nassau County's low-income children 
eating school lunch also ate school breakfast (instead of the current 
29%), Nassau County would draw down an additional $2.2 million in 
federal funding.
    Educational and financial benefits aside, increasing access to the 
SBP through expanding in-classroom breakfast programs is critical to 
ending childhood hunger in this country. We heard an incredible example 
of this from a food service director in upstate New York, who began a 
classroom breakfast program in the 2007-2008 school year through the 
start-up grant funding. Like many school districts, there was some 
initial resistance from teachers in this particular school about 
switching from cafeteria breakfast to classroom breakfast. One day, 
this particular food service director received a message from a 
teacher. The note said, ``Thank you for this program. At first, I 
didn't think it was necessary. I was concerned about the time it would 
take from teaching. This Monday, I had a student come up to me after 
breakfast and say, `I'm so glad I got to eat breakfast today! I didn't 
have anything to eat all weekend.' I now understand how crucial the 
classroom breakfast program is to my students. I never would have 
realized this student was hungry and not getting fed at home, and I am 
sure there are so many others out there just like him.''
    The Child Nutrition and WIC Reauthorization Act provides tremendous 
opportunity to strengthen the SBP and ensure children throughout the 
United States and NYS have access to morning nutrition to grow, learn, 
and play. In addition to providing funds for schools to implement in-
classroom universal breakfast programs, the Nutrition Consortium of NYS 
also recommends that Reauthorization include the following provisions 
related to school meals: increase meal reimbursement levels, fund SBP 
outreach and promotion; eliminate the reduced-price category for school 
meals; and eliminate the letter method as an acceptable means of direct 
certification for school meals.
    To view the Nutrition Consortium of NYS' Academics and Breakfast 
Connection (ABC) Pilot Report, please go to: http://
www.nutritionconsortium.org/childnutrition/documents/abcfinal.pdf
    For the Nutrition Consortium of NYS' most recent report on the 
School Breakfast Program in NYS, please go to: http://
www.nutritionconsortium.org/childnutrition/documents/
20072008ShinewithSBReport.pdf
    For the Nutrition Consortium of NYS' new report on Direct 
Certification for School Meals in NYS, please go to: http://
www.nutritionconsortium.org/childnutrition/documents/ 
DirectCertificationNYS09.pdf
                                 ______
                                 
    Chairwoman McCarthy. We also have several--expecting 
several other groups submitting testimony.
    As previously so ordered, members will have 14 days to 
submit additional materials for the hearing record. Any member 
who wishes to submit follow-up questions in writing to the 
witnesses should coordinate with the majority staff within the 
requested time.
    Without objection, this hearing is adjourned, and thank you 
very much.
    [The statement of Ms. Shea-Porter follows:]

   Prepared Statement of Hon. Carol Shea-Porter, a Representative in 
                Congress From the State of New Hampshire

    Thank you, Chairwoman McCarthy, for holding this hearing, and thank 
you to all of the witnesses for taking the time to come testify this 
morning. Our child nutrition programs play an important role in our 
schools. Without free or reduced meals, some children would go without 
breakfast or lunch. We all know that it's just harder to concentrate 
when you are hungry. This is especially true for children in the 
classroom.
    While these programs have been a huge success, there is much room 
for improvement. I am pleased that today we have the opportunity to 
hear about innovative approaches that have been taken across the 
country to improve both the access and quality of our school nutrition 
programs. This insight will prove helpful as we begin looking at the 
upcoming reauthorization.
    In particular, these nutrition programs provide a unique 
opportunity to shape the way our young people make their meal choices. 
With obesity rates on the rise, we owe it to our children to not only 
provide them with fresh, healthy meals, but to empower them to make 
healthy meal choices when the time comes for them to choose or prepare 
their own meals. To this end, I applaud efforts to provide nutritional 
education to our students.
    I am a proud cosponsor of the Healthy Food Choices for Kids Act, 
legislation introduced by my friend and colleague, Congressman Braley. 
This bill would establish a pilot program that would involve posting 
the nutritional information of the school meals provided, and 
developing a nutritional awareness program that would correspond with 
the labeling. Providing nutritional information is essential, but 
explaining to our school children what this information means is also 
essential if we are to empower our youth with the tools to apply this 
information to their own personal meal choices.
    I look forward to continuing our discussion of child nutrition 
programs and the various approaches that can be taken to expand access 
and quality.
                                 ______
                                 
    [The statement of Dr. Gene R. Carter follows:]

 Prepared Statement of Dr. Gene R. Carter, Executive Director/CEO, ASCD

    Chairwoman McCarthy, Ranking Member Platts, and Honorable Members 
of the Subcommittee: Thank you for the opportunity to share ASCD's 
ideas on innovative approaches for dealing with the issue of child 
nutrition and wellness. My name is Dr. Gene Carter, and I am Executive 
Director and CEO of ASCD.
    Founded in 1943, ASCD is an educational leadership organization 
dedicated to advancing best practices and policies for the success of 
each learner. Our 175,000 members are professional educators from all 
levels and subject areas--superintendents, supervisors, principals, 
teachers, professors of education, and school board members. Our 
nonprofit, nonpartisan membership association provides expert and 
innovative solutions in professional development, capacity building, 
and educational leadership essential to the way educators learn, teach, 
and lead. Because we represent a broad spectrum of educators, we are 
able to focus on policies and professional practice within the context: 
``Is it good for the children?''
Educating the Whole Child
    Since its inception, ASCD has built on a core set of values and 
beliefs in support of the whole child. We believe student success is 
dependent on academic knowledge, physical and emotional health, 
engagement, and school and community support. We advocate for sound 
education policies and best practices to ensure that each child is 
healthy, safe, engaged, supported, and challenged. Specifically, that 
means:
    <bullet> Each student enters school healthy and learns about and 
practices a healthy lifestyle. Schools and communities create an 
environment that promotes the learning and practice of healthy 
lifestyles, collaborating to increase access to health care for 
children and their families.
    <bullet> Each student learns in an intellectually challenging 
environment that is physically and emotionally safe for students and 
adults. Schools and communities consistently assess comprehensive 
safety issues to foster effective conditions for learning. Each child 
has the opportunity to access a challenging curriculum.
    <bullet> Each student is actively engaged in learning and is 
connected to the school and broader community. Students who are engaged 
and connected to their schools demonstrate increased academic 
achievement, attendance rates, and participation in activities.
    <bullet> Each student has access to personalized learning and to 
qualified, caring adults. Schools and communities connect students with 
caring adults. These positive relationships reinforce academic 
achievement and social, civic, ethical, and emotional development.
    <bullet> Each graduate is prepared for success in college or 
further study and for employment in a global environment. Students 
engage in a broad spectrum of activities in and out of the classroom. 
Districts and communities work together to provide meaningful learning 
experiences and opportunities to demonstrate achievement.
Data and Research on Child Health and Wellness
    There are a number of studies focused on the issues of child health 
and wellness.
    ``Healthy eating contributes to overall healthy growth and 
development, including healthy bones, skin, and energy levels; and a 
lowered risk of dental caries, eating disorders, constipation, 
malnutrition, and iron deficiency anemia.''--U.S. Department of Health 
and Human Services and U.S. Department of Agriculture. (2005). Dietary 
guidelines for Americans, 6th Ed. Washington, DC: U.S. Government 
Printing Office.
    <bullet> ``Research suggests that not having breakfast can affect 
children's intellectual performance.''--Pollitt, E, & Matthews, R. 
(1998.) Breakfast and cognition: an integrative summary. American 
Journal of Clinical Nutrition, 67(suppl): 804S-813S.
    <bullet> ``The percentage of young people who eat breakfast 
decreases with age; while 92% of children ages 6--11 eat breakfast, 
only 77% of adolescents ages 12--19 eat breakfast.''--National Center 
for Chronic Disease Prevention and Health Promotion, Division of 
Adolescent and School Health. (2008). Nutrition and the health of young 
people. Retrieved from http://www.cdc.gov/HealthyYouth/nutrition/
facts.htm
    ``Hunger and food insufficiency in children are associated with 
poor behavioral and academic functioning.''--Alaimo, K, Olson, C.M., & 
Frongillo, E.A. (2001). ``Food insufficiency and American school-aged 
children's cognitive, academic and psychosocial developments.'' 
Pediatrics, 108(1): 44--53.--Kleinman, R. E., et al. (1998). ``Hunger 
in children in the United States: Potential behavioral and emotional 
correlates.'' Pediatrics, 101(1998): 1--6.
    ``From 2002 to 2008, the percentage of schools in which students 
could not purchase candy or salty snacks increased in 37 of 40 states. 
Among the 31 states with at least 3 years of weighted data during 
2002--2008, a significant linear increase in the percentage of 
secondary schools in which students could not purchase candy and salty 
snacks was detected in all states except Nebraska (Table 1). A 
significant quadratic trend also was detected in nine of these 31 
states. The quadratic trends indicated that, except in Washington, the 
rate of increase was greatest from 2006 to 2008 and from 2004 to 2008. 
Among the 34 states with weighted data for both 2006 and 2008, the 
median percentage of schools in which students could not purchase candy 
or salty snacks increased from 45.7% in 2006 to 63.5% in 2008 (Table 
1).''--Centers for Disease Control and Prevention. (2009, October 9). 
Availability of less nutritious snack foods and beverages in secondary 
schools--Selected states, 2002--2008. Morbidity and Mortality Weekly 
Report. Retrieved from http://www.cdc.gov/mmwr/preview/mmwrhtml/
mm5839a4.htm
    <bullet> ``Compared with 2006, in 2008 the percentage of secondary 
schools in which students could not purchase soda pop was significantly 
higher in all 34 states, and the percentage of schools in which 
students could not purchase sports drinks was significantly higher in 
23 states (Table 2). * * * The median percentage of schools in which 
students could not purchase soda pop increased from 37.8% in 2006 to 
62.9% in 2008, and the median percentage of schools in which students 
could not purchase sports drinks increased from 28.4% in 2006 to 43.7% 
in 2008.''--Centers for Disease Control and Prevention. (2009, October 
9). Availability of less nutritious snack foods and beverages in 
secondary schools--Selected states, 2002--2008. Morbidity and Mortality 
Weekly Report. Retrieved from http://www.cdc.gov/mmwr/preview/mmwrhtml/
mm5839a4.htm
ASCD's Approach to Child Health and Wellness
    ASCD believes that a coordinated, comprehensive approach is the 
best means by which to achieve positive results for child nutrition and 
wellness. Schools should be encouraged to use, and incentives should be 
made available for the use of, approaches that includes the interaction 
and coordination of staff responsible for health education, health 
services, and nutrition services, at a minimum. Students and parents 
need to be involved and community organizations and businesses should 
also play a role. By using a comprehensive approach, opportunities to 
address a wider variety of related issues such as nutrition, physical 
education and activity and social-emotional health are increased. Doing 
so also decreases the chances of children falling through the cracks or 
somehow being overlooked for programs and services for which they would 
otherwise be eligible but of which they or their families may not be 
aware.
    Take, for example, the issue of providing school breakfast or 
lunch. An administrator in New Mexico tells the story of a high school 
senior in his very small school. The school changed its practice 
regarding certifying eligibility for free and reduced-price meals 
qualification. The student told the administrator that prior to this 
change, she had often been without food for days. The student was 
unaware that she might have qualified for free or reduced-price meals, 
and her parents did not complete the application. Although it is a 
small school, the administrators had no knowledge of the young woman's 
dire circumstances. The student now receives two meals a day at 
school--frequently the only food she eats during the week. As is the 
case in many other parts of the country, there are no social services 
programs located nearby nor is there a local grocery store. Providing 
school meals on a presumption of eligibility reduces the possibility 
that students will go hungry.
    School nutrition is one part--albeit an important one--of educating 
the whole child. Schools should be places where students can learn 
about and practice healthy lifestyles. Nutrition education is 
necessary, but it should be within the context of health education that 
meets the national health education standards (revised in 2007 by the 
Joint Committee on National Health Education Standards and available at 
http://www.cdc.gov/healthyyouth/sher/standards/index.htm). The school 
environment must be one that supports the practice that is taught. 
Policies need to be in place that support the ability of students and 
staff to easily make healthy choices. Foods sold outside of the 
cafeteria, such as those found in student stores and a la carte lines, 
and those offered outside of the traditional school day, such as those 
offered through school fundraisers or made available at sporting and 
extracurricular events, should be part of this effort to support the 
practice of good nutrition. These offerings should not include food 
choices that compete with the cafeteria nor should they be in 
opposition to the messages that students receive in class. Nutrition 
messages throughout the school building and grounds (whether conveyed 
actively or passively) should be consistent and have as their ultimate 
goal improving the nutrition and wellness of the children and adults in 
the school and community at large.
ASCD's Healthy School Communities Initiative
    Created in 2006, ASCD's Healthy School Communities effort (HSC) is 
an integral part of ASCD's Whole Child Initiative: a multiyear plan to 
shift public dialogue about education from an academic focus to a whole 
child approach that encompasses all factors required for successful 
student outcomes. As a part of this mission, the Healthy School 
Communities effort serves as a community-building resource for schools 
and communities that work together to create healthy environments that 
support learning and teaching. It also provides a space for networking 
and sharing of resources, ideas, and practices that encourage the 
ongoing promotion of a coordinated approach to school health 
programming and policy within school communities.
    HSC is built upon seven tenets:
    <bullet> Demonstrate the belief that successful learners are 
emotionally and physically healthy, knowledgeable, motivated, and 
engaged;
    <bullet> Demonstrate best practices in leadership and instruction 
across the school;
    <bullet> Create and sustain strong collaborations between the 
school and community institutions;
    <bullet> Use evidence-based systems and policies to support the 
physical and emotional well-being of students and staff;
    <bullet> Provide an environment in which students can practice what 
they learn about making healthy decisions and staff can practice and 
model healthy behaviors;
    <bullet> Use data to continuously improve; and
    <bullet> Network with other school communities to share best 
practices.
    Eleven sites were chosen from nearly 300 applicants to participate 
in a two-year pilot program. Each pilot site received a $10,000 grant 
and technical assistance. The goal was to create healthy school 
environments with each of the pilot schools working closely with their 
community to face the unique challenges presented by each school 
setting. The results were as follows:
    <bullet> Barclay Elementary/Middle School (Baltimore, MD): 
Developed an on-site dental clinic and a therapeutic truancy program 
addressing the underlying causes of attendance problems. They also have 
a strong after-school program, which is credited as one of the reasons 
for their increases in academic achievement.
    <bullet> Boston Arts Academy (Boston, MA): Created a strong student 
support team that focuses on the emotional and cognitive well-being of 
students. Community partnerships help the school provide a range of 
programs for the students, and visiting artists act as role models as 
well as teachers.
    <bullet> Des Moines Municipal Schools (Des Moines, NM): Provides 
physical, dental, and mental health care for students and staff, as 
well as to the surrounding communities. To compensate for the fact that 
students have limited access to fresh fruits and vegetables, ``the 
fruit wizard'' delivers a different fruit or vegetable daily. In 2008, 
in an effort to ``promote physical activity, provide nutritious foods 
and encourage family involvement in the health and education of their 
children,'' the New Mexico Department of Education began using the 
Healthy School Communities Healthy School Report Card in 67 schools 
across the state, including all Santa Fe public schools.
    <bullet> Hills Elementary School (Hills, IA): Has a large 
population of students who live in an impoverished trailer court. The 
school started a community center at the trailer court that offers a 
monthly dinner program that provides opportunity for parents, teachers, 
and students to work together on developing study and life skills. 
Hills also has mental health promotion programs and focuses on reducing 
barriers to learning, such as truancy.
    <bullet> T.C. Howe Academy (Indianapolis, IN): Has the Learning 
Well Clinic, a collaborative with the Community Health Network of 
Indianapolis. A nurse practitioner oversees the operation of the 
clinic, which is available to students with parental consent. The 
school also established a FAST Club (Fitness, Academics, Success 
Together) as a unique way to encourage healthy habits such as proper 
exercise and nutrition.
    <bullet> Orange County School District (Hillsborough, NC): Has been 
working to systemically implement an evidence-based, coordinated 
approach to school health. Thirteen school sites have completed the 
Healthy School Report Card, and the school superintendent meets 
regularly with a core group of colleagues to determine how best to 
strengthen health services.
    <bullet> Pottstown School District (Pottstown, PA): Has a strong 
relationship with the Pottstown Area Health & Wellness Foundation. The 
district collaborates with community-based organizations that share the 
common goal of keeping students healthy and promoting effective 
learning.
ASCD's Recommendations
    ASCD submits the following recommendations for your review:
    1. The dietary guidelines governing school meals need to be updated 
to reflect current science and childhood obesity trends.
    2. Rules governing school meal programs should be applicable to all 
foods served on campus throughout the school day.
    3. Congress must take steps to increase schools' access to healthy, 
nutritious foods. In rural and urban centers, food-service staffs are 
challenged both by cost and access. The kids in these schools often 
have less general access to fresh fruits and vegetables outside of 
school. Schools need the ability to access these products in a way that 
is not cost prohibitive. At one HSC site, the fruit and vegetable 
program receives support through the school-based health center in 
recognition of the connection between mental health and healthy eating.
    4. The Child Nutrition and WIC Reauthorization Act should support a 
holistic approach to addressing the needs of the whole child. We as a 
nation must begin to focus on ensuring that each child has the 
necessary means for being healthy, safe, engaged, supported, and 
challenged. Economics should not be the key factor in determining 
whether a child in a low-income area has a healthy, nutritious school 
breakfast, lunch, or snack. For many of our children, school is their 
only source of nutritious food. By turning our focus toward ensuring 
that children have access to healthy foods and by providing support for 
evidence-based policies and practices that support the physical and 
mental health of students across the country, we can impact learning 
and reduce the incidence of undernourished and overweight kids.
Conclusion
    ASCD is a resource on issues surrounding child nutrition and 
wellness as well as overall efforts to support the whole child. We look 
forward to working with members of Congress on this and other issues 
with the ultimate goal of doing what's best for children.
                                 ______
                                 
    [A submission from Ms. Clarke follows:]

        Prepared Statement of Lorna Donatone, Market President,
                  Sodexo School Services, Sodexo, Inc.

    Chairwoman McCarthy and distinguished committee members my name is 
Lorna Donatone and I am Market President of Sodexo Schools Services. I 
am based in our U.S. Headquarters in Gaithersburg, Maryland.
    Thank you very much for giving me the opportunity to provide input 
on innovative practices adopted by Sodexo to improve child nutrition. I 
am pleased to describe for the committee examples of programs that 
Sodexo has found successful in increasing the consumption of healthy 
and nutritious meals by students.
    Sodexo is the leading provider of integrated food and facility 
management services in the United States with roughly 120,000 employees 
in 6,000 locations across the U.S. We employ approximately 180 
dietitians and medical center employees at 5 hospitals in Brooklyn's 
11th Congressional District who work to provide food services for both 
children and adults. We also provide wholesome meals that meet or 
exceed USDA nutrition guidelines to K-12 public and private schools in 
upstate and western New York. Through our School Services Division, we 
serve meals to children in over 470 school districts throughout the 
country, ranging from big city systems like Atlanta to small rural 
systems. Sodexo is committed to delivering effective programs that help 
students, teachers, parents and employees understand nutritional 
concepts and allow them to make informed decisions that support a 
healthy lifestyle. Experience has shown us that persuading children to 
eat more nutritiously is an evolving process that requires new and 
creative methods that make healthy foods more acceptable to children. 
Permit me to outline several specific parts of the Sodexo approach 
which we have found to be especially effective.
Access to high quality foods
    We have found that many children who qualify for free and reduced 
price meals fail to avail themselves of such services for a variety of 
reasons including failure to complete the application, social stigma 
associated with school meals or, in the case of breakfast, because of 
extenuating factors that impact the childs ability to be in school in a 
timely fashion. Sodexo supports school districts by encouraging 
families to complete and submit the meal benefit application. 
Completing the application is the first step to ensuring all students 
have the opportunity to enjoy healthy meals everyday, followed by 
developing new, creative solutions and opportunities for students to 
access meals. For example, a General Manager in California ran into 
some resistance when she planned breakfast service--timing issue around 
when students arrive and when class needs to begin. Her solution was to 
institute a second-chance breakfast during morning recess. She serves 
breakfast from kiosks on the playground (cereal, muffins, yogurt, 
graham crackers, fresh fruit, juice, milk). The majority of the 
students she serves are eligible for free and reduced-price school 
meals, and often do not have access to food at home in the morning. Her 
efforts have increased breakfast participation by 70 percent. The 
principal was pleased and the teachers say students are more attentive 
and better prepared to learn.
Creating pleasurable food experiences
    Our goal is to provide children with healthy foods that they enjoy 
eating. In order to meet the desires and needs of students, Sodexo has 
a team that monitors student insights and trends, as well as reviews 
and evaluates evolving studies on student nutrition. We have discovered 
that children tend to eat with their eyes first, so the food we serve 
must be colorful, visually appealing and familiar. Sodexo has been 
working closely with its vendor-partners to source food that meets high 
nutritional standards while also being attractive to kids--both in 
flavor and visual appeal.
    For example, in a school district in Hopewell Valley, the block 
shaped wax-coated milk cartons that traditionally have brought milk to 
schoolchildren have been replaced with eye-catching, pear-shaped, 
recyclable plastic bottles that feature tasty low fat milk in regular, 
low-fat chocolate and strawberry flavors. In addition, the school 
provides a number of milk-based promotional items such as magnet, 
buttons, rubber wrist band and the like. In other school settings, milk 
machines have been moved to high traffic areas and the distinctive 
``Got Milk'' posters are used to attract student attention. In all 
cases, we are pleased to report that milk consumption has increased and 
recent studies support the fact that offering a variety of milk choices 
sustains student consumption of milk. In a recent study, when flavored 
milks were removed from schools, there was an observed reduction in 
milk purchase consumption for all grades (K-12). This reduction ranged 
from 37 percent in high school to 62 percent in the lower elementary 
school grades. This reinforces the fact that milk needs creative 
packaging and variety so that students benefit from the additional 
calcium and vitamin D afforded by milk.
    In addition to the examples provided above, we also have increased 
healthy eating through the utilization of age appropriate educational 
programs. At the K-12 level, Lift-Off is Sodexo's school ambassador and 
this character is presented in a variety of fun and engaging ways to 
entice students to aim for better nutrition and physical activity. For 
instance, we partnered with Los Angeles Martha Montoya, the cartoonist 
behind the nationally-syndicated ``Los Kitos'' comic strip. The 
partnership brought popular ``Los Kitos'' cartoon characters like 
Pikito, Mima and Solito to elementary school cafeterias across the 
United States with a monthly comic strip. Sodexo's nutrition mascot 
Lift-Off, joined the ``Los Kitos'' characters in entertaining and 
educating students through comic strips about topics like the value of 
a good breakfast and daily exercise. To help celebrate the nationwide 
program launch, Lift-Off was joined by Montoya and Mima (the mouse) 
from ``Los Kitos'' to bring a special health and nutrition message to 
students at William McKinley Elementary in the Burbank Unified School 
District. During this visit, Montoya taught students to draw cartoons 
during a classroom educational session while a registered dietitian 
also taught students about healthy eating and then lead the class 
through an engaging activity session.
    For middle school, we offer Performance Zone and at the high school 
level we offer Balance Mind Body and Soul. Both programs highlight 
nutritional content of meals, offer monthly promotional messages 
through brochures, posters and signage, and offer vibrant, age-
appropriate signage to motivate students to make healthier lifestyle 
choices. Students have access to a variety of wholesome menu choices 
with pizza made from whole grains and low-fat cheese, and fresh salads 
and deli options.
Building coalitions
    We have also discovered that it is essential to involve varied 
members of the educational community is influencing the food choices of 
children. In many instances, we have formed Nutrition Teams, comprised 
of parents, teachers, food service directors, dietitians, students, 
school nurses and physical education teachers to develop healthy meals 
and to coordinate and integrate educational messages at home, in the 
classroom and on the playground. Our chefs and registered dietitians 
have been invited into classrooms to teach nutrition and culinary 
skills, and have offered after-school programs, such as cooking 
demonstrations on creating healthier meals at home. Other school 
communities have begun to build school gardening programs with the 
assistance of Sodexo managers and chefs. Registered dietitians and 
school managers work with parents and nursing staff to ensure students 
with diabetes and food allergies are properly accommodated. And most 
recently, we have signed a very important agreement with the Alliance 
for A Healthier Generation to ensure beverages and snacks served to 
students in all grade levels meet specific nutritional criteria. By 
serving snacks and beverages with a healthier nutrient profile in age-
appropriate portion sizes we hope to visually educate students, parents 
and teachers about better food choices.
    Madam Chairwoman and members of this distinguished committee, these 
are brief highlights of the many ways in which we strive to increase 
student access and interest in school meals, and thus, promote 
consumption of a healthier diet. Thank you for allowing us this 
opportunity to share our story.
                                 ______
                                 
    [Whereupon, at 11:31 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
